I

!AI
Supreme Court, U.S.
FILED

(T ‘ V
No.

w’

A

::

AUG 1 8 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

RICHARD E. WANKE - PETITIONER
vs.
STATE OF ILLINOIS - RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
ILLINOIS APPELLATE COURT

Richard Wanke, Pro Se
Register No: K77902
PO Box 1000
Menard, IL 62259
(779) 348 - 2487

s

4

4
4

QUESTIONS PRESENTED

APPELLATE DISTRICT COURTS IK! ILLINOIS ARE SPLIT ON
HOW AN ARREST INITIATES PROSECUTION OR. WHETHER IT
DOES AT ALL. ARE THERE CIRCUMSTANCES WHERE A
PERSON'S ARREST AMD ACCUSATION FORAN OFFENSE,
with delays, can initiate his prosecution for.
purposes ofhis constitutional right to a speedy
TRIAL*

IN ILLINOIS, INDIGIGENT DEFENDANTS WHO ARE REPRE­
SENTED BY PUBLIC DEFENDERS' OFFICES' ARE UNDER A
DIFFERENT STANDARD REGARDING CONFLICTS OF IN­
TEREST AS THOSE REPRESENTED BY A PRIVATE LAW FIRM.
ARE THERE AMY CONCEIVABLE CIRCUMSTANCES THAT
Could create an office-vvide conflict of interest
IN A PUBLICDEFEWDER'S OFFICE. ILLINOIS SAYS NO.

i

l

i
:

[

\

f.

f
vLJi

V

*

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

1 f

n

TABLE OP COMTE NITS
Questions presented
LIST OF PARTIES
TABLE OF CONTENTS
ta&le of Authorities
Turisdic t/on
CONSTITUTION AND STATUTORY ISSUES
STATEMENT OF THE CASE,
ARGUMENTS FOR GRANTING WRIT

i

* »

i i

i \ i

t I (

iV

v
w
I -[4
15-^

INDEX TO APPENDICES
APPENDIX I
APPENDIX II
APPENDIX ll(
APPENDIX!!/

Brief and argument for defendant
2.-I7-0373 DENIED NOVEMBER ZLj 20\J
TRANSCRIPT OF ORAL ARGUMENTS
ARGUED NOV EMBER 7 y ZO\S
RULE 73 2.^1? DISTRICT APPELLATE COURT
QRDEI2. , ISSUED 111 Zb, 19
Relevant materials / supporting
documents and exhibits

' i f

11 i
8 J ■ ■ ••

r

TABLE Op AUTHORITIES CITED
CASES
Page number
PEOPLE \f, WAWKE/ Z.0I9 1L APP/(Tk/D) I7o2>73-U
I&-34
BARKER \j , W/NGO / 407 0/5,514(1072")
IE-21
I/NITED STATES v, MARIO My 404 U,$/30? (\97j)
(L-1Z
BRADY v, MARYLAND/ 375 U.Sj S3y SB S/Ct, M94 09(3)
18
DOGGETT U, UN (TED STATES , SOS UiSj G47 (|$92}
19
UKJ IT&OSTATESu, LQVASCO / 437 U»S 7&3 (1577)
2D
People v. lawsonl cn Hindi 459
2o~2\
PEOPLE v, DELGADO/ 3US IK ( APP, 3d GUI
2o
PEOPLE 1// RAZZ ELL y
II),
177 (15773
20
UNITED 5TATE \a MACDONALDj 45G U.Si I [192X3
22-24
Dillingham u. united states, 423 u.Sy £.4(1975)
24
PEOPLE u< KlLCAUSKI / 2,0IE IL APP(STH) I405ZL
14 - 2E
PEOPLE Mi TUCKER / 2013 W LSB El 4£9
24
People u, silver. 510 in, app,3c\7&o('2nQ'2oo7)
IE
PEOPLE v, PAW KEY, 7 4 111. Zd 12 ( I m)
2E
People v. iow/nsel, 2o(& il app, (2nd) ilggii
25
People u. cole / now
27- 7)5
PEOPLE v// SPREITZER / Wb W\i1A \ (19885
27- 55
PEOPLE V/, E5AN K5j 121 IlhldGG 09873
11-35
HOLLOWAY VrARKANSASy HZ5 U.Sy 475 (|?78)
2i m
People v, fieldsy ion il iiihsb
2&

PEOPLE U, HARDIfU, 2DF7 Illr2d2ft9
CUYLERu, SULLWANy HL(o UtG,349
GLASSERv. UNITED STATES, G2S,CT>47
STATUTES AND RULES
7ZE1LCS 165/ \7 /13AK/PS1
7Z0ILCS 5/ 2-16
PROFESSIONAL code of conduct

31
32

31

10 8/ 2\

25
4 - £>

federal
FREEDOM OF INFORMATION ACT

THRUOUT

|V

3

■- tj

'r

!

JURISDICTION

Richard wanke ■} petitioner, hereby petitionsthis
Court &v motion for leave to proceed /a/ forma paupeais
AA/D PETITION FOR WRIT OF CERTIORARI.

I^?AC,cJ?seD WAS arrested on febroarv 6,20oa anp more

Maimpd
^ 3jlQa2/Bl,tfAICEDT0 INDICi . THE ACCUSED REAN O AR1-61:5 A^° WA& ^RR-ESTEP Oa/ APRIL 6/ 10M
LV Thrcc vrEocQ<N MA7 2.^ 2.0/4.. TORY TRIAL PROCEEDED NEARTHE SHAAtTi!;tRStI'^'TERON pEbRU/VR'' 27' 2017, NIUE YEARS AFTER
HE SHOOT KlG. THE DEFENDANT WASCONVICTED MARCH ft,
2011.
HE WAS CENT EWCED TO LIFE IMPRISONMENT ON MAT «7
Z6)l AND
IMMEDIATELY APPEALED,
BRIEF AND AilROUMENT FOR DEFENDANT (frfPENDIX l) ;

oralargv-

THE ILLINOIS SUPREME COURT WAS DENIED ON MARCH 25,1020,
T° THE f^DEM ID TH IS COURT I SSUED ORDER S8=> ON MARCH
AUGUST14T2o2DNti DEADUNE9,' DEFENDANT'S DEADLINE IS

the

Jurisdiction of this court is invoked under iai/,s,c§116760

r

:

■SuPR&MEdOURT
CIRcuW&rAN/CFS,

;■

:

I
V

i

i

\/

V.

fr

Constitutional and statutory issues
IN iLLlMOISy THE STHanD 2mJ> APPELLATE DISTRICT
COURTS HAVE DIFFER I IMG VIEWS CONSTITUTE AN ARREST
A-ND DELAY FOR PURPOSES OF E VALUATl NG THE SPEEDV
TRIAL CLAUSEOF THE SIXTH AMENDMENT A NO THE DuE

Process clause ofthe fifth amendment,
LIKEWISE/ IN ILL/NOlSy THE RIGHT TO CONFLICT-FREE
COUNSEL ISA CHALLENGE UNDERTHE SIXTH AMENDMENT
WHEN IT OOMESTO A CONFLICTED PUBLIC DEPENDENTS
OFFICE CDMPAREDTOA PRIVATE FIRM*
THE COUNTy OF W (NNE BAGO/ 1LU NOIS ALSO HAS DIFFI­
CULTY IN PROVIDING, PRESERVING ORKMOWIMG WHAT
TO DO WITH PUBLIC RECORDS OR WHO SHOULD HAVE
ACCESS AND WHO IS EXEMPT.

Vi

i

STATEMENT OF THE CASE

THE: f RESEMT CASE INVOLVES THE DEATH Of A GENERAL PRACTICE. ATTORNEY, ON
February g, zoob, ataround 2. etaGregory Clark wag shot and killed duping
A BLIZZARD ODTGIOEHISEASTJIDEHOME, IN POCKFORD, ILLINOIS. AT AROUND
K P.IH.7 LATER THAT SAME DAY, POLICE OFFICERS SURROUNDED AND ARRESTED THE
defendant at Gunpoint outside

m west-side home nine miles away, a
variety OF OPPOSING REASONS WERE GIVEN AT THETIME, but T4E ovly ration­

alization given years later, for the arrest was that officers had
PROBABLE CAUSE TO BELIEVE THE ACCUSED HAD MURDERED CLARK.
AT THE TIME OF THE ARREST AND WIDESPREAD ACCUSATIONS, THE DEFENDANT
WAS OUT ON bOklD/ HE WAS MONlTEREO BY THE. COUNTY'S PRETRIAL SERVICES
AND was AWAITING- RESOLUTION ON HlS PROSE PCST-TFVAL MOTIONS AMO POSSIBLE SEN­
TENCING for a cooc burglary in Winnebago county gaseivouber oc-cf-hqE,
I HE DEFENDANT HAD PLEAD NOT GUILT TO THE CRIME, BEEN ROUND GUILTY AT
JURY TRIAL ANT> THE CASE WAS CONTINUED MULTI PlE TIMES DUETo INCLEMENT
weather and other, issues since September zgq7, clark was'his court
Appointed conjflictcoumselonthatcage.,
AT AROUND II PM ,, LATERTHATSAlAE EVENING, THEN DEPVT7 STATE'S ATTORNEY
MAPOIE G'COIVNOR AND OTHERS WENT TOTHE. NOME 0 F THEN) JUDBE TRU ITT IA/H0

OVERSAW CA5E& Ok-GF-'HOS AND PRESENTED UNKNOWN EVIDENCE AMD A QRDBl
REVOKING THE ACCUSED'S BOND, THERE WAS NO RECORD MADE OF THE EX PARTE
CoMNWNlCAmvS. DUE To THE SfJDW EMERGENCY AND SEVERE WEATfER C£MD ITIDNS
THE COOPTS, MANY BUSINESSES, MOST PU&UC AND PRIVATE OFFICES, AND SGHMS
WERE CLOSED ON THE DAYS SURRDONDImG 01,06,08. JUDGE TRUIT SIGNED THE
ORDER LATE THAT NIGHT, THOUGH IT IS INQUESTION WHENTHfVl ORDER VVAG FILED,
■HEARINGS PROCEEDED/ ATTORNEYS WERE APPOINTED AND WITHDREW/ THETKIAL
JUDGE AND PUBLIC DEFENDER'S OFFICE IN ERE CONFLICTED OFF CASE & £-CF - 40S>
ULTIMATELY, AFTER MUCH DELAY, THE DEFENDANT WAS SENTENCED IN AUGUST &
To A DISPUTED IH" YEAR EXTENDED-TERM IK/PRiSoNMENT IN THAT CASE TOR THEFT
OF A LAPTOP AND WAS SENT TO THE ILLINOIS DEPARTMBJTOF CORRECTIONS W\TH
A projected release date in zdit- mo inquiry was made at the
Time regarding the arrests *

I

THE LAST ACTION BY POLICE REFLEGTEP IN THE. RECORP WAS DECEMBER fo/03,
WHEN THE ILLINOIS STATE foUGE CRIME LAB ISSOED A REPORT FlNPlNG NO GUN-'
£HOT RESIDUE , No FINGERPRINTS OR UNEXPLAINED DNA ON NdMEROGS SAMPL£S
COLLECTEP FROM A l/EHIO£ AND SUBMITTED Cl£>TVHNfr ITEMS SENT TO IT EtCt<
ON FEBRUARY IS,taOB. AFTERTHATTIME THE IMV/ESTIEATION BECAME
All &\Jt a unsolved ^coldgase*
BORINjG THE T/N\E BETWEEN THE DEFENDANTS ARRESTS AMP THE CASE RONNiAlG
OCLP POLICE, OFFICERS CONDUCTED KlDMEROCB WITNESS INTERVIEWS, EXECUTED

^ear:h

warrants a no searched several homes, THE ______
_______
STATEMENT
OF FACTS

IW THE APPENDIXES (DEFENDANT^ APPEA1S £>F4Ef AND ILLINOIS 2J9? PI$rRl6T^PFR(AIE
COUKT ORDEgJ DESCRIBE THESE INVESTIGATIONS. SAMPLES WERE SENT TO LAE6
MV FhCKFbRD DGtECTWC TOF££Y REGEx CONDUCTED TWO 't&WEL STUDIES''
WHERE ADMiTTEDLY CONDITIONS DID NOTE&UALOR RECREATE THE BLIZZAl^ CONDITIONS
ON T-HE DAY OF THE SHOOHMG. BULLETS AMD SHELL CASHES \N6(R£ RECOVERED/
VlCfe6 FROM A NEIGHBORHOOD BANK ATM AND OTHER LOCATIONS WERE GATLEReTL
A youNGGlRL WHO MAY OR NAY Nor HAVE BEEN A WITNESS WAS INTERVIEWED
and Recorded at a local children's honv-: . numerous news articles and
Reporting w ere devoted to this sensational daytime shotting,

A grand TORY WAS CONVENED and ON FEBRUARY 13/lOOZ deputy sa o'connor
PRESENTED TESTIMONY FROM SANT COftNN, KIM KUEN AND CHARLES SMITH. THEW
DID Not P>RlN& FORTH AM INDICTMENT. iWMESTlCATOKS NOV ED OfN. THE RECORD DOBS m
INDICATE THAT ANY FURTHER ACTION WAS TAKEN IN THIS CASE Bl THE STATED ATIOfWEY
OK. AN Y FbLlCE AGENCY UNTf L APRIL I b, 7.01 W JUST BEFORE THE ACCUSED WAS TO BE

Released From prison*

the state filed an indictment charging the actdsed

KiiT-H 30 COUNTS OF FIRST DEGREE MURDER, DUE To SEVERAL fRDSE flUNC5,THB

Record odes indicate that prior.to being

i ndigted the accused sought from

THE STATE DOCUMENTS CONCERNING HIS ARREST WHICH DEFIED OR IGNORED; HE
made valid fkeeuqmofinformationrequests inhere documents wereivithhejc

ANPTHE STATE INSTRUCTED OTHER PV&UC A0£NC|CS NOT UMEpTHEIKADTHopiTy To
Mot cooperate anP withhold Pudlic Regdrpg front Him amp His friends*
in 'ZooS/ the Statens attorney's office conducted business in a moderate
FASHION WHILE APPROACH I NO AN ELECTION YEAR* REGIME CHANGE BROUGHT
A lA0RE LI BERAL OCCUPANT TO Wit TOP PoSITTGfW S A JOSEPH BKVSCATO IVA5
IN HlS SECOND-TERM APPROACHING A THIRD WHEN THE DEFENDANT WAS IN­
DICTED. during- his Political campaign brvsgatd jousted with His oppoNEmt oN WHO WOULP BEST BRING THE DEFENDANT TO JUSTICE/ BEFORE A PACKED

a

'Bar

association debate event, the accused brought forth a cavil

actiokJ/

From

prisons against the participants of that debate as well

as several police officers in \bi\iev in what was termed

His ''false arrest/r
BACK IN loofi, THE GOLD EASE" HEADED UP AND MONTHS LATER HE WAS INDICTED,

n
WAS APPOINTED COUNSEL FROM THE PUBLIC DEFENDER'S OFFICE
DESPI i E HIS PLEAS FOR A SPEEDY TRIAL AND RE&OESTS FOR GONFLICT-FRE&REPRESENTATION. SINCE 7.005/ THE BURGLARY CASE <X-CF-H(7& HAD PRO­
CEEDED FROM APPtALT0 APPEAL AND NOW WAS BACK ON A POST CONVICTION
IN A ADJACENT COURTROOM* SEEKING COLLATERAL RELIEF. THE CHIEF JUDGE
OF THE CIRCUIT HAD AT FIRST APPOINTED CONFLICT COUNSEL WHO WITHDREW/
THIS CYCLE REPEATED ITSELF FOR MONTHS UNTIL ALL THE ATTORNEYS UNlDER.
CONTRACT WITH THE COUNTY NAD WlTHDRAWNl. THE COURT THEN) APPO/NTfdthe Public defender's office who the court deemed conflicted,
FINALLY SETTLING ON OUTSIDE COUNSEL, NATE NICMAM, FROM ROCK
ISLAND, ILLINOIS. TH\S ALL TRANSPIRED INJ PARALLEL TO THE PRESENT
CASE 7 VET THETWO COURTS REACHED OPPOSITE OPINIONS ON THE SAME
!NFORMATION. THE DEFENDANT PRESENTED TRANSCRIPTS / COURT
RECORDS AND DOCKET ENTRIES PRO SE TO SHOW THE LENGTHY PROCESS
THE OTHER CTGDGE HAD FOLLOWED To ENSURE CONFLICT-FREE REPRE­
SENTATION * THE DEFENDANT (NFORMED THE TR/ALCDURT IN THE PRESENT
CASE HE WISHED TO AVOID REPEAT INGTHZ PROCESS A SECOND TIME,

Repeating he sought a £peedytr/al ano counsel who weren't conflicted*
OVER THE COURSE OF PRE-TK/AL PROCEEDINGS/ FOUR DfFFER&NT ASSIST­
ANT PUBLIC DEFENDANT'S FiLED FOUR SEPERATE MODEMS TO WITHDRAW
Due to con flic i s of interest. Sometimes they adopted the defen­
dant's OWN PRO SE REASONINGS WORDING AND FILINGS^
THE FIRST AND THIRD MqTlONS/ FILED BY DEPUTY PD DAVID DOLL AND
ASSISTANT PD DERRICK SCHMIDT RESPECTIVELY/ ALLEGED OFROE'WlDE
CONFLICTS OF INTEREST IN THE PUBLIC DEFENDERS OFFICE AGAINST
i He Accused and due to the offices relationship with the victim
His family and the involvement by the office IN THE INVESTIGATION)* y
ScMEoF THE SPECIFICS WEREj CLARK BEINGA PART-TIME CONTRACT
EMPLOYEE OFTHE OFFICE. CLARK HANDLED CONFLICT CASES THAT THE
OFFICE COULD NOT TAKE / ALONG WITH SEVERAL OTHER LOCAL GENER AL
PRACT IT( ONERS . CLARK SOCIALIZED WITH OTHER OFFICE MEMBERS/
Assumed th-eir caseloads/ interacting with them in court.

3

.

CLARK'S SON -IN-LAW AND LAW PARTNER / BARTON UEN&EST/

WHO WAS

a state witness and vocal oppememt against the accused, CONtinued ro Socialize with office members after clarks death and

Politically lobbied for the defendant's prosecution in the office/
THROUGH THE MEDIA AND AMoONGST HIS COLLEAGUES,
O'Connor, \nhd hadtfe defendant's bond revoked

in an ex parte

Hearing at the gooses Hoiae and conducted the grandgyry back in
Gods, had SINCE been BEEN Fired 6YTHE 5AO and become a pubuc
defender., bringing with her conflicts of interest.
OTHER STAFF
IN THE OFFICE/ KNOWN AND UNKNOWN, HAD GIVEN POLICE INFORMATION
IN) THE HOURS AFTER THESttOCrTlNCr, AND SINGE WHIC^CEMENTED SUS­
PICIONS UPON THE ACGVSED, AND $6ME WORKED PRE-TRIALTO CL)LT11/ATG
uAilHDUSE INFORMANTS AGAINST THE DEFENDANT*
SCHMIDT COMPLAINED THAT ANY ASSISTANT ASSIGNED TO THE CASE COULD
NOT CONSULT WITH OTHERS IN THE OFFICE, LOSING ACCESS TO VALUABLE
OFFICE EXPERTISE AND SUPERVISORS WHO WERE OFTEN IRREPLACEABLE
RESOURCES. HE HAD SUSP I CIONS THAT SOME COULD QKHADBEEAI ACTIVELY
ASSISTING IN THE DEFENDANT'S PROSECUTION AND THAT .SOME FELT MOPE
LOYALTY TO CLARK AND HIS FAMILY THAN THEY HAD FOR COMP LI A MCE WITH
Profess ionjal rules of conduct and tmpir hath. HE ARGUED/vS LA]
PER SE CONFLICT EXISTS WITH THE ENTIRE OFFICE OFTHE PUBLIC DEFENDER BECAUSE THE OFFICE NIlGHT BENEFIT FROM THE SATISFACTION
THAT THEY CONTRIBUTED To THE INVEST! CATION INTO THE M.URD&RLOF
A^feliow defense attorney, at the expense Of their current client.''
FRANK PERRI THE FIRST ASSISTANT ASSIGNED TO THE CASE BYTHE CON'
FLICTED SUPERVISORS OF THF OFFICE WENT EVEN FURTHER. AND ALLEGED
A PERSONAL CONFLICT OF INTEREST AND CONFIDED TO MLS CLIENT THAT THE
ENTIRE: (OFFICE WAS OUTTO GET HI Mo PERRI ALLEGED THAT HE WAS CLOSE
FRIENDS WITH THE VICTIM AND OPENLY QUESTION ED HlS ASSIGN MENTTo THE
CARE AFTER INFORMING Hi'S SUPERIORS OF his CONFLICTS^ RESERVATIONS,
ATTITUDES AND BELIEFS OFTHE ACCUSEDS GUiLT. HE THoUGHt HE SHOULD
BE ASSIGNED CP> Re THE LAST PERS^NJ TO RJEPRES ENT THE ACCUSED.
PERRI ALLEGED THAT HE WAG CLOSE FRIENDS WITH CLARK AND SAW
HIM asa Mentor^ He was also close friends wm clarks law
PARTNER UENBEST AS WERE MANY IN THE OFFICE . PERK. I TOLD THE
*

PEFENDANT HE THOUGHT HIM GUILTY AND DiD MOT BELIEVE HE COULD
ZEALOUSLY DEFEND HIM AS HE HADTdLD HIS SUPERVISORS / BUT THEY
REQUIRED Him TO RLE THE SECOND MOT ON TO WITHDRAW. LIKEWISE/
THE DEFENDANT IN FORMED THE COURT OF WHAT PERRI
AMD OTHERS COMRDED
To Him f*dprivate THAT NO ONE (KJ THE OFFICE l/VANTED To “DEFEND
HIM AND THAT MANY HAD SUSfIClONS/ HELP A GRUDGE7
BELIEVED HlM
GUILTY; and wanted him convicted,
THE FOURTH MOTION To WITHDRAW WAS Filed BY ASSISTANT PUBLIC DEFEND­
ERS NICKZIMMERMAKJ AND ROBERT SIMMONSy WHO (JLTI MATErLY RE­
PRESENTED THE DEFENDANT At TRIAL. GOME WERE THE PRETENSES OF
PfNDING ATTORNEYS FROM THE OFFICE WHO DID NOT KfNlOvU CLARK AND
HIS PaIYiILY OR Were NOT EMPLOYED iNTHeOFFICE IM ZOOS/ whenthe
crime occuped. Simmons stated on the record he was employed
At THE OFFICE IM Zoo^y SOMETHING THE COURT HAD FlRST CLAIMED
SHOULD EE AGDirfeD. ZIMMERMAN/ WAS FACE BOOK FRIENDS WITH HENKEST,
A FACT AVOIDED BY ZlMMERMAM IN HIS FILING AND WHEN F\A£E PART OF
THE RECORD BY THE DEFENDANT IN PRO £E POST-TRIAL rAoriDNS.
I HE FOURTH MOTION WAS FILED IN ANTICIPATION OF A HEARING ON A MOTION
TD QUASH THE DEFENDANT'S AIZRE&T. IN THEIR MDTi orv TO WITHDRAW
ZiMMERMaN AND Simmons avoided declaring THEIR CONNECTIONSTO
THE CLARK FAMILY FoCUSInG RATHER ON HOW OZTONNO^ HAD ACTED UN­
aETHICALLY
Jn
1N OBTAINING THE EX PARTE 0 RD&R REVOKING THE ACCUSEDS
BOND IN CASE# OG-CF-HQ&. THEY STATED THEY COULD NOT ZEALOUSLY
ARGUQ AGAINST A COLLEAGUE - O'cTDNN/oE WHO WAS MOW PAICTOFTHE OFFICE.
IT W/^ ^DT ARGUED THAT THE ACCUSED l/VAS AGAinI ARRESTED MORE
Formally the Following DAY, oh February 7,zoos, when Booked into
lA/lMNEBAGU COUNTYTAIL/ NOR WAS THE DEFENDANT CALLED T6 TESTIP Y
ABOUT THE ARRESTS AMD ARRAIGNMENT ATTHE HEARING DESPITE HTS
l/DCAL WISHES TO DO SO.
OORING THE PROCEEDING'S ON THE FOUR MOTIONS To WITHDRAW, THE
DEFENDANT SUPPLEMENTED THE RECORD AND MADE IK/-C6URT REMARKS
THAT HE HAD NO CONFIDENCE IN AMY ASSISTANT fe ABILITY TO ZEALOUSLY
REPRESENT HIS INTERESTS OVER THBlROWN INTERESTS IN CONCEALING THBR
I/ARIDUG CONFLICTS AMD HIDDEN RANCOR.

5

AMoOnIG- OTHER THing-S, THE DEFENDANT PUTFORTH THAT PUBLIC DEFEND'
£k senior investigator Robert faulknlr, was appointed by pd karen wlkjToN/
A CLOSE FRIEND OP CLARK'S. FAULKNER REftJSEO TO CONTACT DEFENDANT^
WITNESSESORSEEK AVAILABLE EXCULPATORY EVIDENCE . HEToCDTHE DBFBJP/MT
WEBHaRED PERRi's BELIEF INTHE.ACCUSERS GUILT AND BEINGTHE PRIMARY
CONDUIT IN REVIEWING DISCOVERY l/VITHTHE DEFENDANT, HE OELAYED AUD
M ANi PULAT7NG AND DISTORTING THE OVERALL OUTtOME
AND STRATEGY OF THE CASBToTHB DETRIMENT (DPTHE ACCUSED *
HO inqjjry
i NTO THIS ALSER \ \ON WAS MADE BY THE PRE-TRIAL COURT*
THE DEFENDANT ALSO ALLEGED THAT, OTHER THAN P&RRl, ALL OF THE ASSISTANTS
AND THEIR STAFF WHO REPRESENTED HfM HAD PEFUSEl? TO OUTLINE OR EVEN)
Discuss the precise nature of their relationships with Clark, h/spamilY,
UlS legal ASSZSC/ATES / OTHER STATE WITNESSES IN THE LEGAL PROFESSION) OR
Poteut/al w/tn)essbs
Tj+£ case.* even when iwFaRmatidn PcOMENTS

or courtroom banter revealed such associations his coohsel and staff

REPOSED To elaborate further or make a Record as The professional
Rules of conduct ahdtheiroath recil)ibe.
THE TRIAL JUDGE GRANTED PERRIES PERSONAL MOTION TD WITHDRAW, BUT
DENIED THE THREE MOTIONS SEEKING'To DlSDuALI FY THE OFFICE . IN&UlRy
/ l\/TO THE ALLEGATIONS l/VAS LIMITED OR NEGLECTED* WITH RESPECT TD
THOSE MOTIONS CONCERN IMG THE OFFICE , THECTUDGE FOUND THAT NO OFFICEWIDt COMFUCT C0U/.D EVER EXIST NO MATTER THE EXTENT OF THE (WWlOJAL
CDNFUCTS &ECAUSeAS£l£,rAmS WEKE ALL-"lWD£f’£MDAHT C2XTRAC[T5RS"l(VHD
Could Not share conflicts-, the court reason} ed that AS long AS THE
AdSiSTAa/TC assigned To the case DID NOT KNOW CLARK personally or.
have direct /nvalvemejv/t in the inuesti cation// other assvstantIs conflicts
Could Not AFFECT HiMlR Her. REGARDING ZIMMERMAN'S AND SlMfWMY^S
Argument that they could not jealously attack thd propriety of
PELLM ASSISTANT CVcomNOR/s ACTIONS , THE JUDGE FOUND THAT O'COKIUOKS
actions werg not relevant to the defendant's motion to GUftsH arrest.
THERE \!VA5 NO RULING OR PROBE. INTO TRIAL COUNSELS OWN CONFLICTS PCOfTR/AL WHEN THEY WERE REVEALED*
ZIMMERMAN FILED A MOTION TD DISMISS THE INDICTMENT DUE TO DELAY BET­
WEEN THE DEFENDANT'S ARREST IN ZOOS AND inDkTMENT IN ZOl.H* THE MOTION
ALLEGED THAT AFTER THE IWDiCTMBNT WAS FILED, AND AFTER VARIOUS APPOINTM ENTS AND WITHDRAWALS/ I U £ PETEkISC 1NTER.V IBAN CD TWO W\T NESS BS/

6

.LIZANDRa P/AZ- foUNSON AND HERTWIM LINDSAY DIAZ'Jbl-HNSOtV. I T WAS
COMTEN0 tV THAT IN lOCfo, THOSE WITNESSED WOULD HAVE SUPPORTED
THE DEFENDANT'S ALIBI DEFENSE. HOWEVER/ BY THE TIM 9 HE WAS
ARRESTED AGAlM IN
INDICTED/ APPOINTED GO0kl9ELANDTHE:
t^PENEE WAS A6LE TO INTERVIEW THEM , THEY HAD NO RECOLLECTIONS
OP THE MARROW ONE-HOUR INTERVAL OF TIME ON FEBRUARY A/ZooP/ AND
OOOLO PfTaJiQE NO RELEVANT INFORMATION * THt won ON ARGUED THAT THE
Loss or TWO AU&l WITNESSES AND THE TINE DELAY BETWEEN! ARRESTS PRE­
JUDICED THE Accused. ontHe sameday, Zimmerman filed an answer.
To DISCOVERY/ WHICH PLED AN AU&l DEFENSE.
FOLLOWING A HEARING/ THE TRIAL TVD6E DEKHEDTHE NloTlOsl ToDISNllSS

con Grounds that the defense failed to establish he was tfeorpicep by

THE Six-YEAR DELAYS FROM Z0QS-2D\H, BEFORE HE WAS R9ARRESTED AND
INDICTED. PRIOR TO TRIAL/ THE STATE FILED (V\ORE THAN SS MOTIONS IN
limine / with extensive hearings taring nearly two-years TO conduct, the defense pled 9 motions/ including a motion to admit evipekce
OF CLARK3 CLIENTS WHO WERE DISSATISFIED WITH FlSREPRESE^TAIION. ON Og>CTECTIO N BY THE STATE Ak/D LITTiE £LSEV THEcTUDSE DENIED THE MOTION.
THE STATE'S .EVIDENCE AT TR/AL ESTABLISHED THAT ON FEBRUARY6/2oO%j
AT ARoUn/D Z Rfiu CLARK WAS SHoTTHREE TIMES WHILE SNOW&LOWIWG
the sidewalk outside His home, several witnesses Heard shots/
£aW a Vehicle and man- None of those witnesses described the man?

OR IDENTIpea THE MAN A±>THEDEFENDANT* FIVE WITNESSES SAW A VAN/
THE MAKE/ MaDEL AND YEAR AS WELL AS COLOR VARIED^ NO WITNESS
saw a Licence Plate number./ a state emblem or Describe a Dis­
tinctive FUTURE OF THE VEHICLE. BUT AFTER ONE WITNESSCALl&P
AROVNDTHE NEIGHSoRHCDt? SEEKING WITNESSES TO SPEAK WITH12)LtCE
AMD RELAYING WHAT HE SAW / THE DESCRIPTIONS NARROWED To A BLUE
OR PURPLE VAN WITH Gold 0 HUBCAPS*' DRIVING TOWARD OR AWAY FROlV\
THE SCENE:. AlLOFTHoSE WITNESSES AT TRIAL TESTIFIED THAT PEOPLE'S
EXHI&lT'ft 14/ A PICTURE OF A VAN REGISTERED TO THE DEFENDANT'S LAND­
LORD DIANE CHAVEZ/ DEPICTED A VAN LIKE WHAT THEY SAW*
NO WITNESS IDENTIFIED THE DEFENDANT IN OPEN COURT AS THE DRWeR
OF THE VAN/ THE SHOOTER f OR AS. SOMEONE WHO WAS l NTHE VIOIW IT Y
OF THE GFtoori NG OR SEEN l N THE MEIG-HEOEHOOD. ON THE DAY OETH&
SHOUTING/ TVST HOURS AFTER WITNESSING MATTERS AT THE &C6NE - TbMGE

7

• SHOWED foUrofthe. Witnesses a suggestive, photographic array
OF SIX 3 x5/J PICTURES that INCLUDED THE PICTURE OFTHE ACCUSED.
KJOK/E OF THE WITNESSES IDENTIFIED ANYONE DEPICTED InTHT ARRAY?
IHovaJEVeRv THKEEOPTHE WITNE&SEST-ESTiFIED that they were con~
tacteD by police nearly A week lateil and asked to return to the
Police Station to be interviewed # at the Time, police lh-d"'leakedhto
the Local press the name of their suspect they ,'&6Liev'ed"to have
DONE THE SHOOT/NO/ A SUGGESTIVE PHOTO WHICH THE LOCAL NEWSPAPER
Reduced to thumbnail-size, Police claimed the Suspect was umdbfl
arrest, and a description of the seized VEHICLE Police ClAfiABD WAS
INVOLVED IN THE CRIME* THE WITNESSES NOW CLAIMEO/FFTER VIEWING
THE ARTICLE THEY PECOGKH2ED THE ACCUSED'S PICTURE AS DEPICTING THE
DRIVER OF THE GAN IN GiUBSTIOkL
THE 9TATE PRESENTED EVIDENCE INDICATING THAT A LAWDLIME PHONE AT
I He apartment house where the ACCUSED LIVED CALLED c-haVbz!s WORK
PHONE AT CNSP.M, THEY ALSO PRESENTED %A TRAVEL STUDIES “ DON E BY
Police on days that did not compare to &lizzartd comd itioms on
the DAY OF THE SHqOTiMS , THEY PRESENTED/ THAT ON A LIGHTLY SNOWY
DAY/ DRIVlN G a PFE'DETERMINED "ROUTE THAT NO WITNESS TESTIFIED
TO SEEING A SUSPECTTRAVEL,FROhA CLARJck HOME TOTH B DEFOuTANT'S APART­
MENT AcrosstoWN^tlok between IC> And
Mwute5/ DeFHuDiHGON
TRAFFIC LIGHTS. ON FEBRUARY £/Zoo$/ ROCKFORD EXPERIENCED AN HISTORIC
SNOWSTORM THAT "RESULTED in THE BLlZZATD DROPPING THREE FEET OF
SNOW ACCUMULATION. SEVERAL STATE WITNESSES / TESTIFIED THAT FOLLoWINGrdogh ly the same route But in the opposite pifecnoM, coming from
dowmtowm Rockford instead of Goingto, TPAvauvG tothei^e^st-9ide
HoMESv PsLOctCS FROM THE CLARK HOUSE/ IT TOOK THEM A “UmUSUALLY
long time"of about an hour to maKethe 6ametrip, allrpuce who
TESTIFIED, WHEMGlUESTIONEPSN IN EA1HER. COND ITloHS AMP'THE AMOUMT
OFTlA/lE IPTDOK THEM TO TRAVEL TDTHC crime SCENE PROM VARIOUS
PDIkITG ARoUwOTHECItY COULD vlNOT RECALL'' HovU LONG IT TOOK THEM
TO TRAVEL A SlMlLfAR DISTANCE:.
A Former NEIGHBOR OF CLAFK'S Pestf Fl&O ON SEEING A VAlW BUT, TERRI
MISNER, COULD NOT RECALL MUCH/ NOT EVER HER OWN! FORMER ADDRESS *
DEFEn/SE COUNSEL DID WOT CROSS-EXAMH\}£ THIS WITNESS.
A WITNESS AND FORMER NEIGHBOR op “THE ACCUSED s BAREAPAV^ELCHy TES­
TIFIED SHE 5AW A VAN OUTSltfe THE DEP&KIDANT'g APARTMENT IN THE mEARL7

8

* IWbRNIMC 1 ON THE DM 0PTU2 6IG SNOWSTORM, BUT,- DUE TO HER ATVANUNG
n^A,C^L COK/0lTIOK/ ^ RECENT Y£AfcS, PRESCRIBED MEPICATION AWDTRELON?
PCUVS BETWEEN ARRESTS AND TT2JAL 5He WAS UNCLEAR ABOUT WHATSfiE:
™r^E^ED; DU&T° ^lU-HEALTH A VIDEO DEPOSmOlU IVASSKOLUlUTO
l HECTURV. SHE WAS UNDER DCCTDP/S CODERS NOT To TRAVEL 0
^ ANOTHER FORMED NE^H&Dia OF OAKK^ , peterkrutoyem/ WH-O LIa/EC?
Hve HoOSES DOa/N" from THE C^ME SCEKIE IDENTTIPIED AHlECE OPCLomiNC
tolEUEPTD E£ WDRM BY TH B S USFEcT, KKUTCHEN 'SMtOJP* OP A PEUiM

jacket Which he tpst/pied he identified ontke nichtopthe '‘blittard’'
THE ONLY NIGHT HE WAS TAKEN To THE POLICE STATION » HE CLAIMED HE
VIEWED CLOTHING ITEMS AT SP,M, ON THE NIGHT OP FEBRUARY<h/ZPO%> HE
ALSO I ESTIRED THAT TWO NEIGHBORS CALLED HlM GlVlWC HINN DETAILS AND COM­
PARING NOTES ON WHAT THEY SAW. PROBLEM ATI CALL/, FoRlHE STATE✓ POLICE
TESTIFIED THEY LOCATED THE CLOTH l MG- IDENTIFIED BY KlRuTChEKT THE POLLONWINGr
DAY AT I A.M/ DEFENSE COUNSEL DID NOTQLUESTIONOI^ADVERSARIALY
TEST KRUToHEN OR THE PooiCE ON THESE DETAILS OR OESCREPAN/C l ES *
CLARA ARCO/ A CHILD AT THETiMEOFTHE SHOOTING/ TEST! RED THAT SHE
Liedtdthe POLICE, HER DESCRIPTIONSofthe vang it's LOCATION,
TnE MAW SHE CUkl MEDTO HAVE SEEM RUNNING AND HOW HE WAS PRESSED
WERE ALL FABRICATIONS OR OVERHEARING- ADULTS SPECULATE. Yet, (L£R
QUESTlONING-ON VIDEO AT A LOCALCHILDRENfe HOWE, PiAYED FORTVtE JVRy,
WITH LEAOILfc QUESTIONS By THE POLICE WAS HEAVILY RELIED URoisI By THE
STATE IN CLOSING. NOT HER TEST) MOMy OF LYING-AT TRIAL. DEFENSE COUNSEL
REPEATEDLY FAILED TO OBJECT TO THE FALSE CLAIMS OK COM MEM Tj M ADE hi
PROSECUTORS DUeiNOCLOSIUG-AREUMEMTS REGARDING THIS WITNESS'S TESTIMONY
AMD FAILED TD PROVIDE HOW THIS '‘STRATEGY" WAS VALID POST-TRIAL.
CHRIS PRO/ ANOTHER NEIGHBOR./ WAS OWE OF THE WITNESSES WHO CALLED
GROUND SHARI KJG WHAT HE SAW WITH OTHER WITNESSES, HtlSTttE WITNESS

™Zs-£?c

e£L

ON * ^ • Me P ID NOT EXPLAIN How he saw

OR Um/il Ac
FEATURE IN THREE FEET OF SNOW ON A UWPLDWEDRC®
atHoW HE DIFFERENTIATED ORIGINAL WHEEL COVERINGS FROM THIRD-PARTY
rM?f,K6T fiJfVlS ‘ 7146 DEFENDANT IN HlS POST-TRIAL FI LlN<?S SOUGHT

A VEmcL/L^TW^w“UNEtD0&DmiST>O,,Jr/ ^
Faced with inconsistent witnesstestimdny, tHe state pivoted and
OPENLY COMMENTED THAT THE LACK OF INCULPATORY EVIDENCE WAS NOW
ItJ FACT EV/DENCC ITSELF , BECAUSE THE DEFENDANT Ia/AS SMART/ DISPOSED
OF IT ORPLANNED WELL.

WITNESSED TESTIFIED THAT THEY SAW THE ACCUSED ATCH/YZLECSMiTH'c
WDIV^E AROUND 2iS0 P. M, Ok/TlL AROUND H'.50 T\M. SMITH TESTIFIED TO
THE tGOQ GRAND JURY THAT THE DEFENDANT HAD50&AE LAVN5RY IN THE. EAST'
fV\EMT, AT TRIAL/ SMITH DID NOT RECALL THE EXACT WORDS* HE TESTIFIED
THAT HrIS FRIEND AMD CO-WORKER D IANE CHAVEZ REGULARS DID HER
LAUNDRY AT HIS HOUSG^ SOMETIMES BRlNGlNGTHE DEFENDANT'S, SMITH
WENTGN To SAY THAT HE HAD LEFT HIS OWN LAUNDRY In THE WASHER TO
SOAK THATDAY BEFORE HEADING OFF TO WORK AMT) DID N6T SEE ANT
CLOTHING UNTJ L THE POLICE SEARCHING HIS HOMEi/VlTH HISPeRMISSIOND
BUT OUTSIDE HIS PRESEWSE y QUESTIONED HlM ABOUT SOME CLOTHTNO

Items, police alleged theyfoomdthe clothes^ ia/ashLloths akid
Dish towels in the downstairs laundry room * testing revealed
NOTHING SIGNIFICANT ON ANYOFTHE ITEMS AMD NO WITNESS IDENTIFIED
THE ITEMS AS BEING WORN BY THE SUSPECT, OTHERTHAN THE ILLFATED (# D. BY KrutcHEU* THOUGH, THIS DID NOT STOP PCOSECUTORS
IN FALSE CLAIMS THAT CLARA ARCO AND OTHERS IDENTIFIED ITEMS*
POLICE COLLECTED SEVERAL COMPUTERS FROM THE DEFENDANT^
APARTMENT AND ONE COMPUTER FROM SMITH'S HOUSE. SOFTWARE
ANALYSIS OFTHOSE COMPUTERS INDICATED T-HAT NONE OTTHE ACCUSED^
computer's showed Harddrime activity betweck; s;i&a.m. and
Z' HE PfM. ON FEBRUARY G/ 2008 „ SMVTH'S CO NWuTEK SHOWED NO FlLES
CREATED BETWEEN) I2TS9 ?M» AND EH2P.MTND FILES MODIFIED BET'
WEEN lit OS AtMv AND IZtSH P.rt; AND NO FILES ACCESS ED BETWEEN
)0:4£A.M* ANlD 5'HS P,IA. SMITH TESTIFIED HE HAP MADE AN APPOINTMENT
WITH THE ACCUSED FOR THAT DAY TO INSTALLA NEW WEBCAM AND SOFT
WARE foR HIS COMPUTER WHILE HE WAS AT WORK <IN AN ATTEMPT TO SHOW THAT THE OEFBNDANT HAD DISAGREEMENTS
WITH CLARK, THE STATE INTRODUCED TRANSCRIPTS OF COURT HEARINGS
FROM CASE^OG-CF-HOS ; A RECORDED CONVERSATION BETWEEN THE
THE DEFENDANT/ CHAVEZ, AND CLARK; TAPED PHONE, MESSAGES
OFAZ-YEAR PLEA OFFER FROM CLARK; PK0 8E FlUMGS THE ACCUSED
had Subm itted upon Direct appeaunthatcasb; and testimony
FROM THE PROSECUTOR IN THAT CASE. THAT EVIDENCE SHO WED THE
DEFENDANT AND CLARIS OPINIONS DIFFERED OH SEVERAL ISSUES, CLARK
OFFERED A FLEA DEAL/ CLARK D fSCDUNTiNC? EXCULPATORY EVIDENCE

10

■THE: DEFENDANT WISHED PRESENTED AT TKIAL (WHICH CLARK EVENTOALLV COM CEED ED TO AMD DU? PRESENT ), CLARK SEEK ING TO WITHDRAW FROM THE CASE WHICH U/A9 DENIED/ THE DEFENDANT REPEATING
claims of neglect made by appellate counsel offered in his

Direct appeal and illustrated in his writ of certiorari pre­
BEFORE THIS COURT
HOWEVER^ IN NONE OFTHE TRANSCRIPTS / FILINGS ORTESTInAONY did
tv IDENCE SHOW THAT THE DEFENDANT SOUGHT TO TIPS. CLARK,
THREATEN CLARK , ASKTHL JUDGE TO REMOVE CLARK FROM THE CASE,
BAOMoUtLL VERBALLY ABUSE OR YELL AT CLARK. NO VIOLENCE WAS
PESCRI BED r TUST THE OPPOSITE y THE DEFEND ANT ASKED THE
COURT TO HAVE CLARK ZEALOUSLY DEFEND HIM*
FINALLY/ THE STATE INTRODUCED EVIDENCE INDICATING THAT SShAEONE
ON ANOt HER OCCASION FIRED GUNSHOTS NEAT CLARK ON NGV£fSAE>BR Hy
Zo07/ AS CLARK WAS TAKING- OUT THE GARBAGE. A BULLET WAS RE COVERED AFT&R CLARK WAS SHOT AND FOUND To HAVE BEEN FIRED
BY A SIMILAR GUN THAT PIKED THE BULLETS INTO CLARK ON GZOLOfc.
TECHICIANS WERE CALLED AS WITNESSES AND TESTIFIED THAT MOGUNSHOT RESIDUE WAS FOUND ONTHE ACCUSEDS CLOTHING ORfNTHE SElTED
VAN, NO WEAPON WAS, FOUND NOR WAS ANY WEAPON OR AMMUNITION
linked to the accused, na maps, threatening letteks/ emails
OK OTHER /Y1AL1CIOUS COMMON f CAT I DNS INEfcE FOUND OH1HE DEFEWktiTk
OR IN His HoMe, NO DMA/ F/NGERPKINTS/ HaiKORFiBER linked the
Accused to this ck/Me ,
viously

during closing arguments/ the prosecutors made numerous false
STATEMENTS/ FACTUAL ERRORS AND MISLEADING COMMENTS UNSUPFDRTED
BY EVIDENCE WITHOUT DEFENSE COUNSEL OBJECTING: FIVE SEPARATE
Comments claiming t bat the accused killeoclarK because he per­
sonally WANTED TO REMOVE CLARK FROM HIS CASE ; A CLAIM THAT THE
KNEW CLARK WOULD BE HoiVE ON FEBRUARY 6TH; TWOSEFPRATE GOMMEBB
THAT THERE WERE EYEWITNESSE5 WHO IDENTIFIED THE DEFENDANT ASTHE
PERSON THEY SAW " RVNNInGTOTHEVAK)" IN THE AFTEKMAT-ff DP THE
SHOOT/K/g; A CLAIM THAT ALL OF THE WITNESSES UPON SEEING THE AXJSEDS
riCTORE JkI THE NEWSPAPER IMMEDIATELY CALLEDTHEPOLICETO FPPORt HE WAS
THE PERSON THEY HAD SEEN/: A CLAIM THAT FOUROFTHE WITNESSES WHO
VIEWED A PPiOTD ARRAY AND Dir NOT IDENTlFYTHE ACCUSERS PICTURE
NEVPRThELESS 'SAID“THAT HlS HAIR. AND BEARD MATCHED THOSE OFTtfE

il

s

•DRIVER OF THE VAN; a CLAIM THATTHEDEFENDANT's CASE WAS WE ONLs/
CASE CLARK WAS SCHEDULED 17) APPEAL DURING THE PAYS FOLLOW! N<r

February (d/idoS' a false claim t~mat witness Christopher pro
DESCRIBED -me OLIVER OP THE VAN l-ie Saw NEAR THE SCEk/C OP THE
SHoDDNc; A ClA/M THAT ALL OP THE COMPUTERS ASSOCIATED Ia/JTHTHE
ACCUSED " IVEKTT PARK" DURING THE HOURS SURROUNDiNi&THE CKIM& j
A CLAIM THAT CHARLES SM ITII DISCOVERED A BAG- OP LAUNDRY IN HIS
BASEMENT AMP IM M ED IATELY CALLED THE POLICE, MUCH OP THESE FALSE
CLAIMS WERE MADE DURING SUR REBUTTAL OFFERING-THE DEFENSE NO
ABILITY 10 RESPOND/THOUGH ZIMMERMAN SATSILENT NOTPBTECTINCr.
THE JURY FOUND THE DEPENDANT GUILTY OF FIRST DEGREE MURDER* \r
further found that : THE defendant p&fsouauy discharged a firearm
ard caused clarks death : clark w as over thgAG-b ofco; the murdek-W/f
Cold, CALCULATED AND PRBMEPfTATED; AND THE MU ROER. WAS EXCEPTION ALLY
iSrutalak/d heinousZjMm&RM AN Fi LED A MOTION FbR A NEW TRIAL/ WHICH ALLEGED/ AMOUNG
OTHCR CLA/ivSS / THAT THE JUDGE CRRQ? WHEN SHE DENIEP THE PUBLIC
DEFENDER oFF/cc' Nu/lAEROUS CLAIMS TO WITHDRAW AS COUNSEL, AMP W)HbJ
SHE DENIED the Pep Endant's moron to dismiss the charges dugtq
prewudictmewt delay, the defendant filed his own supplemental,
MOTION CONCERNING THE COURTRULIfsIGS AND HIS COUNSEL'S INACTIONS
LfST/UG NUMEROUS EXAMPLES OF EXCULPATORY EVIDENCE IGNORED/ LACK OP
imi d Alternative suspects, failure to hire expert Witnesses./ failure
to object To Blatant false statements and comment made by the
PROSECUTORS / CONFLICTS OF INTEREST AND OTHER FORMS Of \NNEfFEcTil/EvJFSS
by counsel, the court briefly entertaimeid these pro se post-trial
MOTIONS GIV/NG COUNSEL 30 MINUTES. TO "READ AND DIGEST xl2S0 PAGES*'
OF NARRATIVE AND EXHIBITS, TRIAcL COUNSEL RESPONDED ASKiNGHTE COURT TO
ClUestion him and stated in simple monotonous answers repeatedly
CITiMC HiS UNSTATED "STRATEGY" WHILE AVOIDING THE ISSUES OFCOfuFLICT/
ALLEGED INEFFECTIVENESS AMD NUMEROUS UNFORCED ERRORS ON HlS PARTTHE JUDGE ACCEfTEDTHIG/ DISALLOWING follow-up bythe Defbjdant anP
DENIED THE MOTIOMG WITH L FT LE COMM ENTy ULTIMATELY SENfEMCING
THE DEFENDANT I D L(F£ I IMPRISONMENT-.
THE DEFENDANT APPEALED, ARGUING THAT THEcJUOGGL ER.PED 1(0 DEHYIVJG
HlS MOTION TO DlSMl SB THE INDICTMEK/T DUE TO A SlYrYEAfCDELAY BETWEEN
ARRESTS AND INDICTMENT, WHERE; THE DELAY RENDERED TWO POTENTIAL
AU Bl WITNESSES UNAVAILAd&LE ANDT)EGRADED l-HS ABlLJTl/ TO DEFEND fflMSEtF-

(1

THIS VIOLATED THE ACCUSED' COVST1TVTIONAL RIGHTS TO A SPEEDY

Trial or. his right of due process, the tuoge erred i kj denying
ti-ie many motions to withdraw

BY THE PUBLIC DEFENDER'OFFICE7 WHERE
UNDER UNIQUE CIRCmSTANCEE, BOTH SUPERVISORS WERE THE VICTIM^
CLOSE PRlBNDSv OTHER STAFF AND ASSISTANTS VOICED THEIR BELIEFS OF
^CCL)SE:t)* <GUILT AND WOULD NJOT HELP Hlrvl AND HAD BEEN
^(ricC'f ^ INTH£ ^EOmCWORWERE POTENT.W.STWE
VVITNE^ES. THE TRIAL TUDCE ABUSED HER DISCRETION IN DENYING
TO PISQUALIfY THE OFFICE ON THREE OCCASIONS DDE TO NUMEROUS
CITED CONFLICTS OF INTEREST.
THE APPEAL ALSO ARGUED THE COURT AfoUSEP HER DISCRETION WHEN
SHE ALLCWEP THE STATE TO REPEATEDLY PRESENT WITNESSES WHO

Bolstered the li mited and trejvdi gal eye w itnbss test iadny con cerninJo- prior consistent statements and looked past prosecutors
WHO CDMtYMTTED MISCONDUCT WHICH DEPRIVED THE ACCUSED OFA FAIR
TRIAL BY REPEATING FALSEHOOD^, INNUENDO/ SPECULATION CO WOUND­
ED ON SPECULATION/ MISSTATEMENTS ON THE EVIDENCE. AND ALLOW!N^,0£F£WSE COUrtSfcLTOSTAKJD IDLE DURING CLOSING ARGENTS
LAYING BARE THEIRCONFUGTS OF INTEREST.
THE FULL APPELLATE ARGUMENTS AND UNPUBLISHED ORDER BY THE
COURT ARE DETAILED IN APPENDIX! AND APPEND! xm RESPECTIVELY*
APPenD/XH ARETHE ORAL ARGUMENTS BEFORE THE COURT.,
ULTIMATELY/ THE APPELLATE COURT AFFIRMED THE CON WGTlON AND
SENTENCE DEEMING THE TRIALCQURT^ INQUIRES (nTo CcnPLICTSOF
INTEREST "ADEQUATE" AND DETEKMING THE STATE NEED MOT EXPLAIN
A 5lK^YEAR DELAY BETWEEN/ARRESTS AND INDICTMENT. THE CPB
PI STRICT APPELLATE COURT OF ILLINOIS ALSO MUSED THAT IT WOULD

like to exc itle the use of the word "arrest" fromthe "indictmentARREST- OPFl UAL-ACCUSATION TROIKA’* AS FOUND AND CITED IN CASES
PoR SPEEDY TRIAL DETERM IN ATI Ot\L \ ,e. MACDONALD / MARION/ BARKER,
AND IN ILLINOIS/ LAWSON/ BA22ELL/ COLE, ETC. AND FURTHER STATED
THAT "AN ARREST/ WITHOUT THE SUBSEQUENT COMMENCE MENT OF
A PROSECUTION/ WILL NOT TRIGGER.THE CONSTITUTIONAL SPEEDY
TRlA L PROTECT IONS *' EVEN IF " THE LENGTH OF THE DELAY BETWEEN
ARREST AND INDICTMENT IS EXTREMELY LENGTHY*'7

The defendant appealedthecourt's unpublished order wmt
A PETITION FOR LEAVE TO APPEAL To THE ILLINOIS SUPREME COVRT/
WHICH

13

•

rejected the opportunity to resolve the disparate rulings

IKJ THE YY-D AND 5T.H APPELLATE DISTRICTS EQNCERKJlNG SPEEDY
TR/AL OIRTO DECIDE IPTHERE CjOULD feE UNbEROHESE UNIQUE ClRCUIV\ STANCES EVER AN OFFICE-WIDE CONFLICT IN A Pu&UC DEFENDER'
OFFICE WITH A CLIENT.

TME CONTENTS OF THIS PETITION ARE CONDITIONAL DUE TO IN­
TERVENING' RESTRICTIONS BROUGHT ON B7 THE COVID-19 PANDEMIC.
RESOURCES TO FULLYIWLIMENT A LEGAL FlU NG OF THIS BREADTH
ur^/iWAV/A,LABLE'* U,5< MAfL DELIVERY IN TH IS RURAL SETTING
HAS GREATLY SLOWED, MENARD C.C, AND M09T OF IDOCIS ON
LOCKDOWN . ALL LEGAL SERVICES AND LAW LIBRARY RESOURCES
are Restricted or severely l/m i ted. legalcopies/ notary
SERVICES / KEYClTfNG , SHEFHARPIXING AND STATIONARY SUPPLIES
ARE limited or unavailable.
Rule is.B of the rules of the supreme court allow for the rung
A SUPPLEMENTAL BRIEF For Filing MATERIALS NOT AVAILABLE at the
time of Filing due to intervening matters, petitioner regrets
That APPENDIX IV OF THIS FILING IS INCOMPLETE AND WILL UTlLlTE
RULE 15.B TO PROVIDE A MORE COMPLETE FILING iUTTE FUTURE.
THE COURT WILL NOTETHAT SofAE OF THE EXHIBITS DO NOT HAVETHC
APPELLATE RECORD NUMBERING IiD< IN THE LOWER RIGHT-HAND CORNER -*
OF THE PAGE, THE PETITIONER HAS SUPPLEMENTED THE FILING WITH
j+is own Copies and will workto perfect this in future submission
i his material is eesent/a^to understand the petition^
Must BE NOTED; THAT COMMON I GATT ON IS ALSO DIFFICULT FOR THE PETI­
TIONER, HE IS DEAF OR HEARING IMPAIRED. HiS DISABILITY ADDS AH
EXTRA LAYER OF DIFFICULTY IN OBTAINING LEGAL S&RVICES |NA
TIMELY MANNER,
it

14

ARGUMENT f
THE U.S. SUPREME COURT SHOULD GR.ANT REVIEW TO CLARIFY
THE. LAW WITH RESPECT TO THE CIRCUMSTANCES UNDER. WHICH
A PERSON'S ARREST PUBLIC ACCUSATION FOR.AN OFFENSE,
DETENTION AND EXCEPTIONAL DELAYS CAN INITIATE HIS PRO­
SECUTION FOR THAT OFFENSE FOR PURPOSES OFHIS CON­
ST ITUTIONAL Rl GHT TO A SPEEDY TRIAL.
the Shooting, arrest at gunpoint and public accusations at
ISSUE IN THE PRESENT CASE OCCUREP ON FEBRUARY G
. THE
ACCUSED WAS HELD/ NOT ALLOWED TO LEAVE / STRiFSEARCHED
AND HIS POSSESSIONS TAKEN, QUESTIONED l/NTILTHE NEXT N\QRNiNbj YET NO VIDEO OF THE INTERROGATION EXISTS AS 1S REQUIRED
BY LAW, HE WAS SUGGESTIVELY PHOrOGRHED, THE ONLY SUSPECT
IN THE PHOTO ARRAY WEARING A DARK WINTER CPAT TURNED IN THREE*
Quarter profile facing the camera, vet no potential witness
shown PHOTOS identified HUM THAT EVENING. THE FOLLOWING
Morning the accused was again arrested more formally prior
m BEING BOOKED INTO WINNEBAGO COUNTY TAIL ( C 8Sl) PENDING
ARRAIGNMENT ( C ft&l) , LATER/ ON FEBRUARY 7, ZOOS, HE WASTAKEM
TO COURT, ROOM 407 AT 4P/PL (C857), TO ALLEGEDLY MEARCHARSES,
YET COURT RECORDS (C 8S8) DIFFER FROM TAIL RECORDS. THE
RECORD DOES NOT CONTAIN A TRANSCRIPT OF THAT, BUT THE ACCUSED
CONTENDS HE WAS TOLD ME WAS BEING CHARGED*
THIS CALLS INTO QUESTION THE BASIC PREMISE OF HOW CASE
NUMBER OG-CF - HOC AFFECTS THE PRESENT CASE. THE 7.UP DISTRICT
APPELLATE COURT OPINION STATES "ONTRE SAME DAY AS THE ARREST^
defendants Bond was revoked and he was held in custody to
the Bond revocation !' there is a dispute on when the bond order
TOOK AFFECT AND WAS Fl LED, THERE IS N6 DOUBT THE ORDER WAS
SlCN/ET? THE EVENING OF FEBRUARY 6/100$ AROUND II P.M,, INA EX
Parte meeting between deputy sao^cqnnor ak/dtudge truth
THE COURT HOUSE WAS CLOSED THAT DAY AND AT THAT LATE HOUR DUE
TO 1BLIZ7ARD CONDITIONS THE UNFILED ORDER WAS USEDT0 HOLD THE
PRiSonertHe following morning- (c 854), Though the propriety
OF HIS ARRESTS WERE NOT LOOKED AT THEN, BUT WERE DELAYED AND
RULED UPON IN ZOJD WHERE THE COURT DETERMINED THERE WAS PROBABLE

15

t

. CAVS£ FOR THE INITIAL ARREST IN ZOOS. THESE ISSUES RE&ARDI NG
LENGTUY INTERROGATIONS/ SUGGESTIVE PHOToc,, THE S ECO Nit) ARREST j
umfiled orders and a phantom court Hearing on 07,01,03 were
ignored* nonetheless,the DEFENDANT SuPPLEKAENTEPTHE
Record With THESE FOIA 0EFI\/EDT)OCUMBNT£. ALSO IGNORED WEPE

REQUESTS TO PRESERVE DoC DMIEN IS SURROUND IMG THE ARRESTS.
7<2^
*$5/ 17/ZJb AND “51 CONCERN THE
r\B9PIUG OF RECORDS REGARDING BY PRETRlA L SEKVI GES * TIPE
ACCUSED WASOUT DN Bond. MONITORED By THE cck/nty of-fice
CT PRETR/AL SERVICES. ANY INFRAcTlOM REGAFXMNGTHE CON'
Dl Tl ONS W HILB ON BOND WOULD BE "RE CORDED IN THE IR RECORDS*
AU ILLINOIS J VDGE DETERN)INI NO \A1 HETH BR. TO VVOLATE SOWNEONE'S Bohd

Would fee Aided

by these Records < they would detail compliance
1/lOLAT/OhlSy RE STRICT/ONS OR AWT ME W CHARGES, WHILE OUT ON
tbOND. D E FEN PANT SOUGHT To "PRESERVE’'THESE RECORDS AND
TO ■ReCejVE Copies , AS THE STaTl/TE ALLOWS (see EXW&IT3 APfgNPl/ivj;
BUT they WERE WITHHELD on ADVICE BY THE STATE'S ATTORNEYS OFFICE/
WHICH HAS NO AUTHORITY OVER PRETRIAL SERVICES* ULTI MATELY/ THE
RECORDS WERE DESTROYED PRiORTDTHE MoTlONTO QUASH ARREST
HEARING/ THE DEFENDANT ALLEGED THE RECORDSWOUtD SHOW H&COMPlied with conditions of Hfs Bond.
THE defendantsupplementTheregord with Numerous docu­

SHOW/nG INTERFERENCE WITH HIS INCARCERATION AND HlS
AtTEMPTSTO DEFEND HIMSELF FROM ZOOg-ZOPL NEVEPTHE LESS / AND
For Reasons ignored and wholly unexplained imthe record^
rc=e^TtIEcWAITBD UMTlL/5NpR'L-iLy20lH/ THe SE07ND-TERM OF PROments

[
f

h

Ar^i-^rSA<?°SEFH BRUsCaTo 'sTENURE , TD SEEK A N INDICTMENT
nn
Ar ISSUE IN THIS CASE IS THE SIX-YEA*
TU Ec“
ARRESTS AK/DTHE IMDICTMEUT/ AND

PEOPLE ia

SE UNEXPLA|WEU delays VIOLATED the DEFEWDaWTS
RIG-HrTO EITHER ASPEEDyTRIAtORDDEPROCESS.
VVAI\JKE< to|5 ILAPP. ("Ik©} 170373-U, VS {K/M.

AWTUc^Lf^E/ STATEAND 2EP District APPELLATE COURT FOCUSED

pZt^TD^lS T0THE UMITEB STATES CONSTITUTION W.HCH
^K**30**®^ DELAY IN HIS PROSECUTION.

Either

arrkt ok

Ib

I

T«^ss«s«irLrHfROTKTio"s fa,l“
THt r™ELv ressTu™'“CE SlES^ hS Era"
In MARiOn, MR , -TOSTICE WHiT£ provides a UNIQUE PRoSP&Tu/f
D^FMOnI Pl5A&REE:I:) ^'TH THE DEFENSE AND PR&VIOOSCOUET

SpURPofES of'ApK™ J £E'™“- °™DA^ BECAME “aSsED"
after ™fviUn

^ I

CHARGED Kft*E1He>R INDCTMBNT.
10(-ATlOK' WAS ™e F«iod OF THREE TEARS

i nd^tm! Ik Jf-rj?? r cb;Mi 's,Al
TRJAL^^

and the return of am

TIMEOFTHE ADORnONOFTHESlXTHDAMBNPNNeNrt THE PPEVAluIS

■*•<
1^

re""H’ ,FT*“ •«

HOH U.S,AT||5. arrest

AuPl/&UC ACT,''

THE Sehio?-WS0K/ te,?’ON‘Sie'L£ POP-THE EHtonwG AND

i
R'eCCRD SHOW'S THAT TH6 ACCUSED COK/TSNUeO WITH WIS
DOCRePEWEDPttA REQUEST?^i^HlSARRESTS W'iooa. HE MADE
RCr Anc7nr<fr^,^
T5 AFTER INDICTMENT, WAWTOJGTb PREPAPE,
BECAUSE Dl SCOVEfcy WAS LONG IN COM ING DUE TO TH E MANy MOTlCNS

17

• TO WITHDRAW MADE BY THE P U&L 1C DEFENDER'S OFFICE . OPTEM
Hi ^EFFORTS WERE STYMIED. PUBLIC DOCUMENTS WERE WITH­
HELD Or he was BURIED IN/useless document dumps, on
OTHER OCCASIONS/ HE WABTOLD THAT THE DOCUMENTS HADBEEM
vDtSTROY£D"A5WITHHlSFQRM£RATTORN£rS CASEFIL& FOR
CASE ^06-CF-HOE (CI958), J3UT, THERE WERE GEMS, HE FOUND
THE DESCRIPTIVE "OFFENSE! MURDER7'WITH HIS NAME LISTED
as "Suspect" (see exhibit 9 / appendix iv) in A oz.zi, 08
I SP LAB REPORT AND A EMAIL WHERE A ROCKFORD DETECTIVE IS
TELLING THE LAB TO SLOW THEIR EFFORTS BECAUSE HE WOULDN'T
"CALLTHlSA RUSH CASE" REFERRING TO THE TESTING- JBEINGDONE
FORTHE PRESENT CASE, "BECAUSE IT WAS A MEMBER OF THE
COURT WHO WAS GUNNED DOWN." (SEE EX. 10 APR IV),
MARION CONTINUES/ STATING THAT THE DUE PROCESS CLAUSE
OF THE FIFTH AMENDMENT WOULD REQ.UIRE DISMISSAL IF IT WERE
SHOWN THAT THE PRE-INDICTMENT DELAY IN A CASE CAUSED SUB­
STANTIAL PREJUDICE IN RECEIVING A FAIRTRIAL AND THAT THE
D E LAY WAS AN “ INTENTI ON A L DEVI CE TO GAIN TACT! CA L ADVANTAGE
OVER THE ACCUSED." BRADY v. MARYLAND, 375 U.S<83, 83 SXT
1194 Cl9fe3). TRIAL COUNSEL FAILED TO UTILIZE THESE DOCUMENTS
AT HEARING OR. AT TRIAL AND EQUALLY FA!LEDTO ELUCIDATE HOW
THIS WAS A VIABLE "STRATEGY" IN H(S POST-TRIAL EXPLANATIONS" MR, JUSTICE POWELL SET FORTH THE OPINION FORTHE UNITED
STATES SUPREME COURT IN BARKER NOTING A FOUR-FACTOR BALANCINGTEBT AS u SOME OF THE FACTORS" IN DETERMINE WHETHER
FOGTHNlTIATfON DELAY VIOLATED THE SPEEDY TRIAL CLAUSE OFTHE
SIXTH AMENDMENT. BARKER, HD7 [)&* AT 530. UNDER THE BARKER
TEST/ COURTS SHOULD CONSIDER; (O THE LENGTH OF THE DELAY!
CV) THE STATE'S JUSTIFICATION FOR THE DELAY; (3) WHETHER THE
ACCUSED demanded a SPEEDY TRIAL j ANDC4) PREJUDICE SUFFERED
kYTHE ACCUSED. BARKER, 1+07 LLS. AT 5^8,533THE ALSO HELD THAT NONE OFTHE FOUR FACTORS SHoUlD BE SEEN AS
HOLDING TALISMATfC QUALITIES" AND THEY UNDERSTOOD THEYSHOULD
BE CONSIDERED TOGETHER WITH SUCH OTHERCIRCUMSTANOES as MAY
Barker , H07 vxs. at 333* the court went on to say
I HAT BECAUSE WEARE DEALING WITH A FUNDAMENTALRIGHTOFTHE
ACCUSED/ THIS PROCESS MUST BE CARRIED OUT WITH FULLBECO&NITION
(Hat The accused's intest in ASPEEDy trial is specifically affirmed im
THE cdk/stitutionJ- ri

IB

M.«iaf^^SCR,BEDAS 'CLOVER FIVE YF/>AS." IT APPEARED "PERJS^ ^ SOME DELAY5HQ0LB EE AFFORD&DTO SECURE A

barker/uI

IrS

F0URy£ARS was too long a period."

moreover,

o, cW,T!f PRESEWr CASE IT1S JU5TTHE OPPOSITE, THE ACCUSED
QUECj-nOMED
HIS ARREST AND BOND REVOCATION/ DlSPuTEDTHE FACTS,
. nc ,
AHO 50U6rHT TO GATHER DOCUMENTS, ALONG WITH VHS FRIENDS*
\E*W,E>VTS 4-6 APPENDIX IV) - THE DELAYS BETWEEN ARRESTS,
INDICTMENT AND TRIAL totaled over 9-years (over g-years PREINDICTMENT AND NEARLY 3 'YEARS BEFORE HIS TRIAL STARTED T THE
A51U^0 F^EaueuT LY DEMAWDED A SPEEDY TRIAL AWT? DAYS ACCRUED.
a.dlo!tthe,SLoryd^
OTHER WITNESSES WERE
CiVEflriMEToGlVE BIRTH SOASTO TRAVEL; OTHERS MOVED OUT OFSTfflE
FTER. RETIRING/ SOfAE WAD ENOUG-HTUvAE To GROW UP AND GRAQr.^IETR£>M Hl&H SCHOOL OR&o AWAY FOR_GOLL&Ge. THE DEFENDANT^
TWO YOUNG ALIBI WITNESSES WERE NEVER INTERVIEWED DRTH1ER.
f<7ff’^rTLOC-KE1D IN" AS THE STATE'S YOUNG WITNESS WAS. IT
0»^*ILy ALLE&£° ™AT H,S APPOINTEDCOUMSEL AND EVEN
<TATcFp«pfr.^ASrCOCgrUCT£DAlJDM0'T C0MPETEWT. MEMORIES OF
"RFFRc^ucnTS/ STATE WITNESSES AND POLICE OFFICERS HAD TO BE
^N onrr ftt IT^ ,RfPo^TH£y ^0!t ok Prior Statchieutsthey gave.
!N 006GETTwUNITEDSTATES,5051/,S.C47,ASI (M9Y1 THF
BART|f(?DSCAAr£e'SL,PREMECOURT CHARACTERIZED THE FIRST
barker factor as a two-part inquiry. First, a court must make
blh/ARy IN&U/RY CONCERNING WHETHER THE DELAY IS MORE THAN
EWE-YeaR j MAKING IT '‘PRESUMPTIVELY PREJUDICIAL"AND SUBJECT
TO EVALUATION TO EVALUATION WITH RESPECT TO THE OTHER THPEE
factors, D0G6ETT/ 505 U-S, AT 652. SECOND/The court must

Evaluate

the extent to which the delay exceeds that bare

"^ua^SSTE™ER-'mwrFAV0RS-A SmtOVTU^L v,o-

19

J WE. Due PROCESS CLAUSE GOVERN DELAYS BET WE EM TOE CO MM 19,SION OFTHEOFFENSE AND INITIATION OF PROSECUTION!, N\ARlONfv H°H*
U»S.at315> UMITED STATES v* LOVASCO, 437 U,$,783/78? (1577),
BECAUSE the relevant statute op limitation also protects the
FROMTHE HERE POSBtBt LiTY THAT PRE-lNITIATlOW DELAY WOULD
LAUSE HINT PREJUDICE , THE DDE PROCESS CLAUSE ONLY APPLIES To
situations where am Unreasonable delay causes the def EK/DANT ACTUAL PREJUDICE. MARION, 40*+ U,S*AT325THE ILLINOIS COURTS HAVE PROSCRIBED A THREE-STEP ANALYSIS
WHETHER DELAY VIOLATED DUE PROCESS CLAUSE IN A GIVEN CASE.
PEOPLEV* LAWSON, 67 IIL'Id AT *f59; PEOPLEV. DELGADO, 34© 111, ApP.
3d 641, 643 (llTDisr.2.ooG), First, the defendant MUST ESTABLISH
that THE DELAY CAUSED HIM SUBSTANTIAL PREJUDICE IN THAT IT HARMED
HIS ABILITY To DEFEND HIMSELF. LAWSON, 67 111 2d AT 45?, IP THE
DEFENDANT ESTABLISHES THAT PREJUDICE , BURDEN SHIFTS TO THE STATE
TO ESTABLISH THAT THE DELAY WAS REASONABLE , 47 llL2<f AT 459„ TUUSfar, in the present case, the state has not explained the delay
BETWEEN ARREST AMD INDICTMENT. THEY DID SUGGEST 1W ORAL
arguments C APPENDIX H) THAT THE DEFENDANT H/MSELFOR his
friends could have preserved evidence, played detective and
SUPPLIED HIS TWO YOUNG ALIBI WITNESSES WHEN ARREST. BUT,THAT
Tu^f!?ses ™e pendant's guilt,that he had knowledge of
!^
™TAFTERMOON / KNE WTHBTtME OF THE SHOOTING,
WAS ABLE TO SUPPLY INFORMATION HEDIDNOTHAVE OR KNOW HE
NEEDED TO Have, far harder To ACCOMPLISH many years later,
iN 2008,THE ACCUSED WAS ARRESTED, BUT WITHOUT COUNSEL, NO
Right to discovery and wisely remained silent, in zoig, the
trialcourt failed to properly weigh the interests OFTHE
accusep and the public not dismissing the charges nor shift­
ing i he Burden to have the state Provide a Reasonable explan­
ation , f Additional argument- APPEivmyes i , i i and hi)
THE ILLINOIS COURTS HAVE ADOPTED THE BARKER ANALYSIS FOR
SPEErDV I RIAL CLAIMS IN PEOPLE v. BAZIELL, 68 III.Id 177/182. (I977X
and set forth the analysis fokDue process in lawson. However,
THE ILLINOIS SUFREMECOURT HAS NOT HAD THE OFFOKTUNlTYTO DEJc!cATAu^?!SeLV W,4'CH TYPES OF DELAYS FALL UNDER WHICH AVALV5IS. AND THE COURT CHOSE TO NOT HEAR THE DEPENDANT'S
etition for leave to appeal to Do so with the present CAGE «

10

i

I

given the differences between Barker'four-factor balanc­
ing TEST AS ONLY "SOME OF THE FACTORS" /N DETERMINING WHET­
HER POST-INITIATION! DELftY VIOLATED THE SPEEDY TRIAL CLAUSE
AND LAWSONlS STRICT REGUJIREIVIElVT THAT A DEFENDANTSHOW
ACTUAL AND SUBSTANTIAL PREJUDICE BEFORE ANT OTHER FACTOR
CAW £E CONSIDERED, PASSING ON THEQUJESTIOM OF WHICH IS
THE AFPRoPR/ATE ANALYSIS CAN BE THE MOST IMPORTANTQUESTlONI IN A CASEDespite the court's holding in barkerthatthe four-factors
WERE NOT TO BECOME “TALISMATlC" ORTHEONLY FACTORS TO CoUULDEf?,
INTHE PRESENT CASE THERE IS AN OVER-R&LlANCETOTHE EXCLUSION
BE OTHER FACTORS. THE RECORD IS REPLETE WITH OTHER EXAMPLES
OfiTFACToRS"TO GONSI der; THE DEFENDANT SOUGHT To PRESERVE
EXCULPATORY EVIDENCE, BUT CLARK'S LAW PARTNER/ BARTON H&JBST,
ALLEGED HE HAD "DESTROYED "THE DEFENDANT'S CA6EFILE, IN
CASE & OG-CF-HOS / IN THE MIDST OF A MURDER INVESTIGATION (C1951'
1953) ; AS STATED PREVIOUSLY THE ACCUSED SOUGHT PUBLICLY
AVAILABLE PRE-TRIAL SERVICE RECORDS IN 2012.(125 ILCS 185/11,
'Lb, ANP30 TOSHOW HlSCOMPLIANCE WITH BOND CONDITIONS AND
TO SHOW HE WAS OFFICIALLY ACCUSED IN C008/ BUT THEY WERE
AUSO " DESTROYED" C SEE EXHIBIT 3 APPENDIX IV) OR THE DE­
FENDANT'S FRIEND/ D/AN6 CHAVEZ, ATTEMPTS TO ALSO OBTAIN COPIES
OF PUBLIC RECORD'S IN 2d I i (SEE EX.9-5APP, IV) FROM THE SAME
(OFFICE ArvO From HEN BEST (SEE EX, 12 APP. IV) AND FROM THE
State's adorney office (see Ex, £ app. iv) , Bvr was rebuffed or
Told thatthey were"not su&tect to foia," These h in deranges
AND DELAYS ONLY ALLOWED MORE EVIDENCE TO E& DESTROYED.
THERE WERE ENDLESS DELAYS ONCE THE ACCUSED WAS INDICTED
also. Some reasonable anOsovne Not. trial was scheduled,
DELAYED AND RE-SCHEDULED. EACH TIME LOCAL NEWS REPORTED
AN ACCOUNT. EACH TIME ONLINE SOURCES ANDTVNEWS SHOW­
ED THE SAME CLIP OF THE ACCUSED/ IN PRISON! GARB, HAND­
CUFFED/ SHACKLED AMD SURROUNDED &Y COURT OFFICERS.
(CI9T1). WHENTHE DEPENDANT COMPLAINED, OBTECTINGTO
FREQUENT DELAYS WHICH WERE BE PLAYED-OUT EACHTIME
IN THE MEDIA, AND ALLEGED THE EFFECT WAS TO "TAINT THE
■TORY POOL" BEFORE, THE STATE DENIED IT WAS ORCHESTRATED.
TJiE C°URT DlSPui ED THE FACT, NOT BEING ABLE To FIND THE
ARTICLE ON LI NE . SHE DISALLOWED IT TO BE PART OF THE RECORD

21

' ORTO MAKEA FINDING, THE DEFENDANT ENTERED TH& ARTlCUE
(C 077) PQST-TRl AL, BUT HIS ALLEGATIONS WEFEA6AIN IGNORED,
POLITICS PL AY CD IT'S PART ll\l MOTIVATING- AND DELAY INSTHE
DEPENDANT'S INDICT MEMT ALSO, WHILE CLARKS SON-IN-LAW
AND LAW PARTNER/ BARTON HEN BEST / WAS GoURTlNG HIS LEGAL
COLLEAGUES OR DFGTROyfNG DoGOfAEN/T5 ; INCUMBENT STATED
attorney toe bRuscato was ready To "square off #/ against
I4is challenger before a BAR ASSOCIATION CROWD In this
Demo cratic debate (c 1362), provocatively, Glemwebe^
'"MADE THE DEATH OF A COLLEAGUE THE CENTEKPIECE yf6F HlS CAM'
PA1GN, CLAIMING "EACH AND EVERYONE OFYOU KNOW £ WltL
give my heart and sou ltd make sure that killer cs brought
to CTUSTl LE/ BRVSCATO/ when askeT what HE WOULD DoApA/T
cHargingthe accused and whether there was ^suffi­
cient EVIDENCE to prosecute the case" answered v'that is
A PERSON/ NJ el DECISIONIT WAS MORE THAN IS MONTHS AFTER

THIS 2012 DEBATE AND BRUSCATe/S RE-ELECTION BEFORE THE
defendant was again arrested/indicted, this fact runs con­
trary TO THE SPECULATION OF THE APPELLATE COURT, IW ORAL
ARGUMENTS (APPEND IA I I), JUDGE BIRKETT POSITS THAT "WE
CAN ASSUME OR INFER THAT C&RUSCATO] CALLED THE SHOTS WITH
REGARD TO CHABGINGm i I4E LOOKED AT THE COLD CASES AND
SAID WE'RE GO/NGTO INDICT THIS CASE,,." UNFORTUNATELY, THE
MATH DOESN'T FIT REGARDING THAT THEORIZING/ BUT FftEJVPICE DOES.
THE UNITED STATES SUPREMECOURT HAS REPEATEDLY HELD
THAT A PROSECUTION IS INITIATED FORPURPO&EO Of THE CONSTITU­
TIONAL RIGHT TO A SPEEDY TRIAL WHEN A DEFENDANT \5 "INPICTED,
Arrested , or otherwise officially accused/7 united states v,
MacDonALD/ 456 US, 1,4r7
QUOTING MARION/ 404 US,At320.
IN AAARIONv MR, JUSTICE WHITE DELIVERED THE OPINION GtfPLAINIMG THAT AM ARREST CONSTITUTES A PUBLIC ASSERTION BY THE
probable cause exists to beuevb the one arrested commut­
ed an OFFENSE, WHICH "MAY DISRUPT H IS EMPLOY ME KJT/ DRAIN
His Financial resources/ curtail his associations/CandJ
hiM to Public obloquy, '* akjd may " cause anxiety in him,
HIS FAMILY, AND FRIENDS/ 404- US,AT 320 . TME COURT CON­
TINUED, ''INORDINATE DELAY BETWEEN ARREST/ INDICTMENT AND
TRIAL MAY IMPAIR A DEFENDANT'S ABILITY TO PRESENT AN EF­
FECTIVE defense/' Further, it was understood that "Either
a Formal indictment or information orelsg actual restraints
IH POSED BY ARREST" CAN BRING ABOUT THE SPEEDY TRIAL PROASlOMS

2Z

GF THk SIXTH AMEWDMEN/ . THOUGHy TITS COURT IN MARIOM
ChOSETO "'DECLINE TO EXTEND THAT REACH OFTHE AMeNDrVlENTTOTHE: PERIOD PRIOR To ARREST " AS THEY WERE
REQUESTED TO DO THE COURT 010 DEFINE AREAS WU\CH
WERE COVERED.
i wthe Presentcase/ all parties conceedthe defend­
ant WAS ARRESTED , FREQUENTLY ACCUSED^ MlS BOND RE­
VOKED DUE TO THE: SHOOTING AND HELD FORA LONG- PER\oD
of time* Allthose hinderances mentioned above
affected the accused, although there is no recorO of
WHAT WAS SAID THE NIGHT OF FEBRUARY G,200Z IHTHE EX
Parte meet/ngto havethe judge revoke eondofthe
ACCUSED; INFORMATION CHANGED HANDS; ACCUSATIONS MADE
FOK ACTION. JUDGETRUlTTlS QUOTED THAT HE KMEVU uOF
CERTAIN INFORMATION INTO THE INVE5TiGATlON OF THE MURDER
OF GREG CLARK (C 1978).THE JUXTAPOS ITION OF HIS GaJCTTG
BESIDE THE THUMB-SIZE PHOTO OF THE ACCUSED ON/ THE FRONT
PAGE OF THE LOCAL PAPER WAS NOT LOST ON THOSE READING
THE STORY OR ON WITNESSES WHO COULDN'T IDENTIFY A SUSPECT.
THE APPELLATE COURT MADE OTHER ASSUMPTIONS HIGH WERE
NOT ACCURATE, GROUNDED IN FACT OR IN THE RECORD , AT ORAL
ARGUMENTS C APPENDIX 11)/ JUDGE BlRKETT STATES / “MR.
LOGLI WAS STATE'S ATTORNEY.,,''SPEAKING OFTHE FORMER
OFFICE HOLDER BEFORE BRDSCATO „ THIS IS INACCURATE AND
NlOT CONTAINED IN THE RECORD. MR. NICOLDSi WAS STATE'S
Attorney and logli was a circuit court judge incoob.
I3IRKETT ALSO MISSTATES INFORMATION CONCERNING DIANE
C&AVEZ IN SAYING y HTHERE WAS A HUNG JURY AND THEN SHE
APPEALED?" INFERRING SHE WAS A 'vSUSPECT" IN THE CLARK
-SHOOTING. THIS TOO WAS WRONG AND NOT IN THE RECORD. DiANE
CHAVEZ. WAS FOUND NOT GUILT OF OBSTRUCTING JUSTICE WHEN
SHE WAS FALSELY ACCUSED OP LY ING To POLICE* JUDGE BlRKtTT
DURING ORAL ARGUMENTS APPEARS To HAVE EXCEPTIONAL KNOW­
LEDGE OF THIS CASE OUTSIDE THE RECORD/ NJOTABLY MUCH OF
IT IS INCORRECT.
IN MacDOWALD/ THEC0URTCLARIF1EDTHAT IF AN ARRESTEE IS
SUBSEQUENTLY RELEABEU WITHOUT FORMAL CHARGES/THE TIME
THAT PASSES BETWEEN HlS RELEASE AMD IWDKJMENT DDES NOT
INTO SPEEDY TRIAL ANALYSIS/ BUT EVEN IN THAT CASE/ THE COURT
MAINTAINED: ° IN ADDITION TO THE PERIOD AFTER INDICTMENT/
THE PERIOD BET WEEN ARREST AND INDICTMENT MUST BE CON-

23

51D6RED IK EVALUATING A SPEED7 TRIAL ClAVSE CLAIM." MacDOWLP/
454 U.S, AT 7, citing DILLINGHAM v< UNITED STATES/ 4Z7> U,S.
44-66(1975). IMTWE PRESENT CASE* THE TRIAL COURT LACKED
THIS CONSIDERATION.
IN ILLINOIS/ THE CIRCUITS ARE SPLIT AND ARE CONFLICTED
ONTHIS CONSIDERATION. THE ILLINOIS 5TV APPELLATE COURT
ADDRESSED THEQUESTIOIO INI PEOPLE V. KlLCAUSKI/ 1014
I Lapp, (o'™) 140524. Further argument can be seen
IN (APPENDIXES I, M AND 1H) . THE DEFENDANT IN KlLCAUSKI
WAS ARRESTED AND CHARGED BY INFORMATION, 201 (a IL
APPC5TH) 140524/5- HoweVEK/ THE. SHERIFF'S OFFICE:
TURNED THE DEFENDANT OVERTO MISSOURI AUTHORITIES TO FACE
CHARGES INTRAT STATE, AND THE JUDGE DISMISSED THE INFOR­
MATION For lack of a preliminary hearing,2ot4 ilapp* C5th)
140524,ft4, Thirteen months after the defendants arrest,
THE STATE (OBTAINED AN INDICTMENT CHARGING THE DEFENDANT
WITH THE GAME OFFENSES AS HAD BEEN CHARGED IN THE IN FORM A'
TloN. 201b ILAPP.(STH) 140524,^4 * THE 51* APPELLATE COURT HELD
THAT THE DELAY BETWEEN THE DEFENDANT'S ARREST AND HlS INDICTMENT WAS PROPERLY ANALYZED UN DEC THE SPEEDY TRIAL CLAUSE . 2d4
1C APP.CbTfi) 140524,U 29, THE COURT EXPLAINED THAT OMCE THE ACCUSED
WAS ARRESTED AND HIS INDICTMENT MADE / THE TIME HE WAS HELD IN
CUSTODY, WITHOUT AN ORDER RE"LEASING HIM, COUNTED PESPJTE HIS
BEING HELD OM UNRELATED CHARGES IN MISSOURI. 2.014 /L APP. (5*nO
IM0524/ H 25-25. THE COURT RECENTLY CLARIFIED IT'S DECISION /N THE
KlLCAUSKI CASK, IN PEOPLEv*TUCKER> 2015 WL5847HS5/ WHERE
Tucker followsthe Macdonald example of arrest, release
ANO RE-ARREST PORTKlAL*
THE DEFENDANT IM THE PRESENT CASE WAS ARRESTED ON 2.4-08 AT
GUW POI NT. HE TAKEN TO THE POLICE STAT IOT\l AND NOT ALLOWED TO
LEAVE. H E WAS AGAIkf ARRESTED THE FOLLOW ING DAY UPON BEING
Booked, the only rustification offered forthose arrests
WERE PROBABLE CAUSE THAT THE ACCUSED MURDERED DREGGI-ARK*
THE BOND REVOCATION WAS APPARENTLY BASED UPON THE ARREST­
ING COURT EVER ISSUED AN ORDER RELEASING THE DEFENDANT FROM
FROM CUSTODY, THE ACCUSED HAS BEEN JAILED SINCE 2008.UWDER
THE ABOUE UN 1TED STATES 5 UPREME COURT PRECEDENT A NDTHE 5JH
CIRCUIT RULINGS IN KlLCAUSKI, THE SlX-Y EAR DELAY EE-TWE EM
ARRESTS AND INDICTMENT IN THIS CASE MUST BE EVALUATED UNDER
THE SPEEDYTRIAL CLAUSE, ANP NOT THE DUE PROCESS CLAUSE DESPITE THE ABOVE PRECEDENT FROM THE U,S.SUPREME COURT

2.4-

and that ofkilcauski, the. Illinois i yp c i rod i r appellate

COURT FOR THIS CASE INSISTED THAT THE DELAY BETWEEN THE
DEFENDANT'S ARRESTS AND INDICTMENT SHOULD&E EVALUATED UNDER.
THE DUE PROCESS CLAUSE. WAIUKE , IL AFP. C2d) 170373-0, tAO, 91(SEE APPENDIX III). THE COURT WENT SO EAR AS TO CLAIM, "C'T]
IS WELL ESTABLISHED THAT CASES INVOLVING PREINDICTMEnT DE­
LAYS/ i.e, DELAYS BETWEEN ARREST AND INDICTMENT/ ARE AN AY ZED
UNDERTHE LAWSON FRAMEWORK/' 1-013 IL APP, (2ND) 170373-0,119,
citing PEOPLE Vi SlLVER/^G 111. APP.3d 780/783 ( VSt)V3\, 2007). WOT
ONLY DIDTHIS HOLDING DIRECTLY CONTRADICT THE ABODE US - SUPREME
COURT AUTHORITY/ IT WW3 NOT REMOTELY S U PPORTED BY THE AUTHORITY
IT CITED, SILVER INVOLVED A DEFENDANT WHO WAS INDICTED BUT NOT
ARRESTED FOR THREE YEARS. 376 III. APP-5d AT 7&2. THE APPELLATE
COURT HELD THAT DELAY SHOULD BE REVIEWED UNDERTHE SPEEDY
TRIALCLAVSE. 576 111. APP, 3d AT 763. NOTHING IN SUVERSUPPOKTED
THE APPELLATE COURT'ASSERTION INTHIS CASE THAT POST-ARREST,
PRE-INDICTMENT DELAY SHOULD BEREVIEWED UWDERTHE DUEPROCESSCLAUSE,
THE APPELLATE COURT WENTONTOCITE ILLINOIS'STATUTORY DEFINI­
TION OF"'LEGAL PROCEEDINGS'1 AND TWO CASES INTERPRETING THAT
STATUTE'S WORDING WITH RESPECT TO CONSECUTIVE SENTENCING AS
SQPPORT OF IT'S THEORY- 720 ILCS 5/Z'16 (2.006): PEOPLE V, PANKEY,
qmn,2dll,lb (1983); PEOPLEv.ToWNSEL, 2018 I LAPP, O-ND) 160612.
AGAIN, THAT AUTHORITY WAS NOT RELATED TO ORON POINT WITH
THE SPEEDY rRlALCLAUSEORTH£DVe PROCESS clause.
THE QUESTION OF WHICH CONSTITUTIONAL AMENDMENT GOVERNS
Post-arrest, pre-indictment delay in a prosecution was not
ANSWERED BYTHE IU.INOISSVYP£tV\B COURT. THEREFORE,/ AN
ANSWER SHOULD BE FORTHCOMING F-ROMTHISOOURT,
IT IS THE MOST IMPORTANT QUESTION IN THIS ORSIPOTLIAR CASES
IN ILLINOIS. IN THE ABSENCE OF SUCH AUTHORITY FROM THE
ILLINOIS SUPREME COURT, THE
DISTRICT APPELLATE COURT IN THE
PRESENT CASE DEFIED U,S, SUPREME COURT AUTHORITY TO EVALVATE
THE DELAY UNDEP THE DUE PROCESS CLAUSE. THIS COURT SHOULD
GRANT REVIEW IN THIS CASE / SHOULD EVALUATE THE SIX-YEAR
DELAY UNDERTHE SPEEDY TRIA LCLAUSE OR SEND THE CASE BACK
TOTHE LOWER COURTS WITH INSTRUCTIONS TO PROPERLY EVALUATE
THE CASE OR IN THE COURT'S BETtEIR JUDGEMENT DETERMINE
An alternative.
f

i
!■

i

Z5

;*•

ARGUMENT 11

THE IKS. SUPR.EME COURT SHOULD GRANT REVIEW TO
CLARIFY WHETHER THERE ARE AMY CONCEIVABLE CIR­
CUMSTANCES THAT COULD CREATE AN OFFICE-WIDE
CONFLICT OF INTEREST IN A PuBLI C DEFENDERS OFFICE,
THIS CASE CONCERNS THE SHOOTING OF GREGORY CLARK, A
WELL-KNOWN GENERAL PRACTITIONER, WHO WAS ALSO UNDER
CONTRACT FOR MANY YEARS AS A PART-TIME CONFLICT ATTORNEY
FOKTHE WINNEBAGO COUNTY PUBLIC DEFENDER'S OFF\C£*
SEVERAL ATTORNEYS OFTHIS OFFICE , INCLUDING BOTH PUBLIC
DEFENDERS WHO SERVED DURING THE PENDENCY OF THIS CASE,
AND THE SENIOR PUBLIC DEFENDER OFTHE OFFICE AND HER DEPUTY,
HAD ADDITIONAL CLOSE TIES AND CONTACTS WITH CLARK AND HIS
family, particularly his outspoken surviving- law partner
And son-in-law/ Barton Henbest, mamyofthosc senior.
MEMBERS BELIEVED Al/D WERE CANDID IN THAT BELIEF ABOUTTHEDL'
FEWDAWT'S CtIILT I Nl CLARK'S DEATH / AND SOME COMMUNICATED
THAT OPINION DIRECTLY TO THEIR CLIENT.
MOREOVER, BOTH PRESENT AND PAST ME Ml BERS OF THE OFFICE
PARTICIPATED DIRECTLY IN THE INVESTIGATION OFTPHSCAFE lM'ZOQSS
some even attempted to undermine the case pre-trials others
WERE OCCURRENCE WITNESSES; THE TUDGE WHO ISSUED MOST OF
WARRANT'S WA5 A PAST SENIOR MeMBEKIKTHe OFFICE ) THE OFFICE
Refused to disclose other conflicts; and one assistant public
Defender Was the former deputy state's ATTORNEY who CONDUCT­
ED THE GRAND TURY AGAINST THE ACCUSEP IN ZOOS*
the public defender's office filed three sepekate motionstq
WITHDRAW AS COUNSEL ALLEGING OFFICE-WIDE CONFLICTS. IN ADDITION,
SENIOR assistant public defender, ftankplrru who was the FRST
assistant appo/ntep, filed a personal motion to withdraw based
ON HIS CLOSE TIES WITH CLARK, HlS BELIEF THATtHE ACCUSED WAS
Guilty, and His reluctance tofelpthe defendant in anyway
depend Himself.
THE TRIAL TUDGE GRANTED FERRl's PERSONAL MOTION To WITHDRAW/
and fduajp That Someother members op the office also were
CONFLICTED/ BUT S HE I GNOREP AND FAILED TO TAKE ADEQUATE STEPS
CONCElZN/UO VARIOUS BACKROOM SHtUANlGANS BY VAR/OUS OFFICE
ATTaRA)£Y5AMD STATE WITNESSES WHICH KEPT CROPPING UP THROUGH-

ZL

our the Present case.

for example/ the recp u it went or
"SNITCHES//AND IN FORM AWES BYCURRENT AND FORMER STAFF
MEMBERS : THE DEFENDANT INFORMED DEPuTy DOLL EARLY IN
the offices' representation / September ion, (c 809 -05)
T/4AT "MARGIE O'CONNOR IS RECRUITING INFORMANTS (AMOUMGST
HER C Li ENT S, ON MY DEClO FORTHE STATE"; SEVERAL MONTHS
LATER THE DEFENDANT FILED SEVERAL LETTERS AND AFFIDAVITS
Detailing how frankperri was attempting to recruit
Rickie legault (c 581-89) and "then perri asked questions
ABOUT RICHARD WAN KE AND HIS CASE "TO BE A SNITCH AGAINST
HlnO; OR STATE WITNESS AND FORMER PUBLIC DEFENDER/ KRlS
CARPENTER, SIMILARLY TRYING TO INDUCE HERCLTEk/T, EUGENE
DARNELL WOODS / TO INFORM ON THE DEPENDANT(C585“87). THE
ATTEMPTS To CULTIVATE INFORMANTS INTENSIFIED WHEN MONEY
WAS OFFERED (C577)/ SPEARHEADED BY TAILSOPERlNTENPENT
Rob reDmonD/ a former supervising rockford detective
AND STATE WITNESS WHO OVERSAW THE CLARK INVESTIGATION IN
2do2 . RedmonD is quoted in the article, "OBVioUSLY/ people Hear
Things , if they tell us.., they can get paid for it/'(c577),
THE TRIAL COURT REFUSBP TO DISQUALIFY THE Eh/TIRE OFFICE
OW GROUNDS THAT THERE EXISTED AN OFFICE-WIDE CONFLICT OR
ON THE OTHER MATTERS BROUGHT TO HER ATTENTION. THE JUDGE
REASONED THAT ASSISTANT PUBLIC DEFENDS!CS WERE ALL
"INDEPENDANT CONTRACTORS" WHO COULD NOTSHARE CONFLICTS.
the
District appellatecdurtof Illinois avoided using the
TERM "INDEPENDENT CONTRACTORS'? BUT NEVERTHELESS CITED
THE ILLINOIS SUPREME COURT'S HOLDING IN PEOPLE U* COLE /
120997 HH 39-36, FORTHE PROPOSITION THAT NO ASSISTANT
PUBLIC DEFENDER'S CONFLICT COULD EVER BE IMPUTED TO AN­
OTHER ASSISTANT/ ANP ANY ARGUMENTTO THE CONTRARY WAS
vVMCORRLCT ASA MATTER OF LAW." PEOPLE v * WANKE, 2019 ILApP*

(2**0 110373-0,91120.
THE I LLlNOlS SUPREME COURT PIP NOT GRANT REVIEW TO RESOLVE
THE COM MOM MISUNDERSTANDING AND M IS I NTERPTJETITiON OF
IT'S OPINION IN cole; PEOPLED SPRElTZERy
\Cl968j;
AND PEOPLEv.BANKS; |2I W.2dl36 (1987)&HOLLOWAY V. ARKANSAS/
U35U*S<H75 (1978)* WHlLC THOSE ILLlMOlS CASES HELD THAT PO­
TENTIAL office-wide conflicts Ar/iouG assistant public defender's
COULD

1ST AND MUST B€ REVlEWED dOH A (ZASE-&7-CASE BASIS/

11

NO CASE: CAN B£ CITEDj IVOCASE HAS MET THEEXACTING-CRlTCfcft
THUS FAR. AND TttETPJALTUDCE AND XKPDlSTRlCT APPELLATE COURT
IWTENPRETED THOSE CASES AS HOLDING THAT THERE CAN NEVERBE ArV OFFICE-WIDE ConFUCT IN ANY PUBLIC DEFENDER'S OFFICE,
CONTRAST WANKE ,1013 III APP, CTKP) 170313-U, fl FROM COLE,
110337, fl2>8', SPREITZER, 113 111, 2d AT El ; BANKS, 121 III.Id at 42.
IN PEOPLE V, BANKS, 121111,2d 36,4-109873 THE ILLINOIS COURTS
declined to find a perse. conflictof interest where one
PUfoLIC DEFENDER ARGUED THE INEFPECTIVENESSOF ANOTHER..
banks held that it would be erroneous to ass ume that
DEFENDERS M M/ESUCH AN ALLEGIANCE TOTHElKOPFlCE THAT
TME^ WOULD £>£ UNA&LE I 0 SUBORDINATE THAT ALLEGIANCE TO
the interests of their, clients * at 43.
c„ t"he. defendant filed several pro &e motions Requesting “conflict
rKEE

REPRESENTATION, DvETO THE MOUNTING NH/MfeEP OF WITH­

DRAWAL MOTIVING FILED BYTHE PUBLIC DEFENDER'S OFFICE/ VERILY
Contradict/nqthe assumptions in &ankson loyaltY/ citing
that a criminal Defendant's siyth amendment right to counsel
includes the right to counselthat is Free of conflict. PEoPiEv.
Fields, 2oi 2. i l lilHsa/fn. But conflicts in the present case
could Mot be avoided dueto the trial courts Holdings*
prJrLu^ls re Cognizes two categories of conflicts of interest :
PERSE AND ACTUAL, 2012 IL 11236,11 17/SPRE1TZER,123 III. 2d AT 17.
the conflicts at issue in this case are properly evaluated

^,u?Jr,Ak£0NFLICTS- FIELDS, 2GI2IL 12436,H17. IF DEFENSE
counsel brings the potential conflict to the judge's atlenTIOW AT AW EARLY STAGE." INTHECASE/ THE JUDGE MUST EITHER
APPOINT OTHER COUNSEL ORv'TARE ADEQUATE STEPS TO ASCERJAIN THAI THE RISK OFCONFUCT IS TOO REM GTE TO WARRANT DOING
SO, SPREITZER, 123 l)),2d AT ISJ HOLLOWAY Vt ARKANSAS/ 435 US,
475, 484 0978)- IN THE PRESENT CASE / THE DEPUTY OF THE
PUBLIC DEFENDER'S OFFICE FILED THEIR FIRST MOTION! TO WITHDRAW
OF THE OFFICE/ HUM SELF AND THE ENTIRE OFFICE SlY
WA5 AP?c>INTED. AS SUCH, THE REMAINING AND
QUEST ION IS IA/HEtHERTHE" RISK OF CONFLICT WAS TOO
REMOTE To WARRANT APPOINTING COUNSEL FROM OUTSIDE
DLFEMDER/£ 0FF'CE- SPRE.IT2ER, 123 111,2d AT 181
Hollowayv. Arkansas, 435u,s,475,434(197s),
THE PUBLIC DEFENDERS OFFICE'S CONFLICT OF INTEREST AT ISSUE
IN THIS CASE WAS UNIQUE AND MULTIFACETED, CLARK WAS
A PART-TIME CONFLICT ATTORNEY PORTHE OFFICE AND WAS CLOSE

28

‘FRIENDS W JTH MANYOFTME MOST SENIOR PUBLIC DEFENDER'S FADING
KNOWN SOME OF THEM AND THE IK SPOUSES .SINCE HIGH SCHOOL/
College ano law schooli clark's family/ particularly mis
VOCAL SON-IN-LAW AND SURVIVING LAW PARTNER / BARTON HEWBLSTj
WAS ALSO CLOSE FRIENDS WITH MANY SENIOR ASSISTANTS ANP
DISCLOSURES POST-TRIAL SHOW HE WAS FACE BOOK "FRlENDf WITH
LEAD DEFENSE TRIAL COUNSEL, K/ICK2JM MERMAN (SEE EXHIBIT
2 APPENDIX IV}.
the First seniormembekofthe office appointed toThecase,
FRANK PERRI, INDICATED IN HIS PERSONAL MOTION TO WITHDRAW
EXPLICITLY TELUNGTHETODGE THAT HE AND CITHERS IN THE OFFICE
SUSPECT£0 THE DEPENDANT HAD S Hot HIS MENTOR AND THEREFOR£ HrE. COULD NOT SET THAT AS IDE TO REPRESENT HIS CUEk/T,
PERRI INDICATED HE TOLD THE ACCUSED THIS AND MORE CLAIMING
MANY IN THEOFFICETl-IOUGHT HIM GUILTY WHICH MADE PERRI
UNABLE TO EFFECTIVELY REPRE SENT HIM , THE DEFENDANT HllYE
SELF CONFIRMED THAT PERRI AND SECONDCHAlfG ERIN HANNICrATV j
Mad Both confided privatelythatthe office udid not want
this cAst^ and that everyone ° was against" him, this was not
DENIED/ But ALSO not INVESTIGATED By THE COURT- PERRI WAS
ALLOWED TO WITHDRAW SINCE "MOST COURTS HAVE HELDTHAT
AN ATTORNEYS REQUEST... BASED ON HiS REPRESENTATIONS AS AN
OFFICEROFTHE COURT REGARDING A CONFLICT OP INTEREST/
SHOULD foE GRANTED.., Ean ATTORNEY^ IS IN THE&EST POSITION
PROFESSIONALLY AND ETHICALLY TO DETERMINE WHEN A CONFLICT
OF In/TEREST EXISTS OR Will PROBABLY DEVELOP IN THE COURSE
^ATR/flL," Holloway v* Arkansas / 4-^5 its, at mas,quoting
BTAT L Vi DAVIS/ SUPRA, AT3J / 5I* P. 2d AT 1027.
Even the younger members of the office who may not have
BEEN CLARK'S PEERS/ HADMET HIM/ KNEW HE WORKED IN THE
OFFICE FOR MANY YEARS AND KNEW HE HAD FRIENDS ANDGOllEA'
goesthere: ; they would have known hen&est who Was
more their age. derrick sgmmidfs moTionto withdraw
DISCUSSED HrlS UNCERTAINTY i4E FELT BECAUSE HE WAS IN THE
Dark as to which members of the office shared perri's
OPINION AND WHICH HAD ACTIVELY OR. WERE ACTIVELY HELPING
THE STATE GATHER INCRIMINATING EVIDENCE HIS CLIENT.
SoHM/DT EVEN ASSERTED THE OFFICE AS A WHOLE WOULD
" BEN EFIT FROM THE SATl SFACTION THEY CONTRIBUTED TO THE
INTO THE MURDER OF A FELLOW DEFENSE ATTORNEY/ ATTHEEX’'
PEkfSE OF THEIR CURRENT CLIENT/' ScHMlDT DID ADOPT Ott&OF
14IS CLI£N/T'5 PROSE FILINGS CONCERNING CONFLICT, THE DEFENDANT
FROM.THE START HAD INSISTED EXPERTS WOULD
NEEDEJY IM

Id

•

AnID provided budgetary printouts op the last threeypAGo'OF^PtNDlNGF^RTHE PUBLIC DEFENDERS OFFICE/ THOSE
DOCUMENTS SHOWED THAT MO MON EY WAS ALLOCATED OR UT\L\VtV
To pay defense experts and schmidt informed the court that hi$
SUPERVISORS WHO HAD ALREADY BEEN CONFLICTED OFF THE CASE
HELDTHEPURSE STRINGS. AT FIRST / THE COURT FIRMLY HELD THAT
THE BILLS WOULD BE COVERED, EXPENSES PAID FOR DEFENCE EXPERTS,
BUT AS THE CASE PROGRESSED THE COURT'S ASSURANCE S &RE\N LESS
RELIABLE AND ULTIMATELY NO EXPERTS TESTIFIED FORTHE DEFENSE.
The defendant repeated his insistencp/naseriesor letters
fCIO£<f) AMD PROSE MOTIONS (C1085) ON HAVING EXPERTS, AVOIDING
Recognizable and avoidable delays* cchmidt ultimately did not

REPRESENT THE DEFENDANT ATTRIAL. HE WAS FIRED FROM THE OFFICE,
THE DEFENDANT ALLEGING / FOR DISCLOSING PR1UATE AND PRIVIL­
EGED INFORMATION ABOUT HI SCLENT TO A STATE * THIS WAS NOT
DENIED/ NOR WAS IT INVESTIGATED OR EXPLAINED IN THE RECORD,
EVERYTHING SCHMIDT SAID ABOUt HIMSELF, ABOUT HIS CONCERN
AND RELUCTANCE / OR HIS OFFICE WAS EQUALLY TRUE ABOUT AMY
OTHER ASSISTANT APPOINTED ToTHE CASE - NlCK 7.1 M MERMAN AND
ROBERT SI MM O NS j WERE NEXT UP AND ULTIMATELY REPRESENT 6D
THE defendant At trial* conflicted i n v est t gat o r , ro bert faulkm er7
REMAINED ON THE CASE DESPITE THE DEFENDANT'S ANDHlS FRIENDS'
CONCERNS (C408, C10&3, C\OGH, C 1083).
IN ADDITION) TO IT'S UNIQUE EMOTIONAL ASPECT WH1CIA CAUSED
?.VI:1?F'CMARAC'TER R-esfonsee. in these professionals/ the conflict
IN THIS CASE HAD ANOTHER / MORE TRADITIONAL ASPECT, MARGIE
cyConnor wasthe-DEpoty state's attorney in coos, on2,ocob,
HOURS AFTERTHE DEFENDANT WAS FIRST ARRESTED/ O'CONNOR
AND UNNAMED^OTHERS" TRAVERSED A BLl"Z_7AR9 / ARRIVING AT
JUDGE TRUITT'S ROME / PROVIDED UNKNOWN INFORMATION^ AND
obtained an ex parte order , wh ich Was not immedi ately
Filed, revoking his bond in winnebago county case numbers
Q&-CF - HOE, AT THE TIMEy THE ACCUSED WAS BEING MONITORED
By PRE-TRIAL SERVICES WHILE ON BOND/ yet all records regarding
H-lS COMPLIANCE To BOND CONDITIONS OR ALLEGED INFRACTIONS WERE
WITHHELD AND ULTIMATELY DESTROYED, (EXHIBITS3,4,5,b APPENDIX IV).
THAT SAME MONTH OF FEBRUARY / O'CONNOR GGNUENEP A GRAND
JUI2Y WHERE SHF , IN THE WORDSOF HER SUCCESSOR ASSISTANT STATED
ATTORNEY JAMES BR.ON , " LOCKED IN AND PRESENTED VARIOUS TESTI M6NY TO THE GRAND JURY/" MOST OF WHICH WAS ULTIMATELY INTI^DDUCED AS SUBSTANTIVE EVIDENCE IN THE DEFENDANT'S TRIAL NINEYEARS later . o Connor was subsequently Fired FROmthe office

30

’ For unspecified improprieties becoming late£ an assistant
PUBLIC DEFENDER, BRINGING HER CONFLICTS WITH HER, AND WAS
A Senior member of the off ice: when the Defendant's case'
WAS CRARG&O/ TRIED/ AND SENTENCED.
Zimmerman and Simmons Filed a motion to disqualify the
OFFICE ARGUING THAT THEY WISHED TO CHALLENGE O'CONNDR/s
u5e of an Ex parte hearing hearing io revoke the defendant's
bon PAS part of their motion to codas h arrest and suppress
EVIDENCE / &UT ARGUED THEY FELT THEY COD IP NOT DO SO AFFEC­
TIVELY BECAUSE O'CONNOR WAS THEIR COLLEAGUE* THE DEFENDANT IN
FILING HIS OWN MOTION, ALLEGED INSINCERITY OF DEFENSE COUNSEL
that '*<f Counsel is awareof "violations" he must reportthem?
(caoo-oo. AFTER THE TUDG£ REFUSED TO ALLOW COUNSELED
WITHDRAW/ COUNSEL DIO NOT PURSUE THEIR CHALLENGE, BUT THE
DEFENDANT DID. IMAGERIES OF FOIA REQUESTS HE ATTEMPTED
TO LEARN AND PUT ON THE RECORD WHAT TH E STATE/ DEFENSE
counsel And the Trial court Were reluctant to spellqw
AND PUI INTO WORDS ABOUT O'CONNORS "ETHICALVIOLATIONS",
(CBOI), BUT THE OFFICE OF THE PUBLIC DEFENDER followed THE
Same course as the office ofthcwinwebaGo county state's
ATTORNEY HAD EARLIER IN ZoiB (EXHIBIT 6 AFPENDI* »V), THEYOAIM6P
THEIR OFFICE WAS PART OF THE "JUDICIAL BRANCH OF STATE GOVERN ME^*'
Ahd not a m Public body" andthat have no duty to disclose, (c 1974CI976), THE PLAYER'S HAD ClRGLED-THE-WAGONSTo PROTECTTHIER
OWN . WHEN THE DEFENDANT ALLEGED THIS POST-TRIAL,IN HIS MOTION
OF INEFFECTIVENESS/ THAT ZIMMERMAN HAVING NOW BECOME DEPUTY
PUBLIC DEFENDER AND O'CONNOR'S SUPERiViSER WAS LCATH IN DAM­
AGING HIS COLLEAGUE'S CAREER BY ARGUING HER PRIOR PROSECU­
TORIAL MISCONDUCT IN OPEN COURT. THE COURT FAILEDTO INQUIRE
ON THIS ORGTHER POINTS MADE POST-TRIAL BY THE DEFENDANT AND
Zimmerman didn't volunteer or make known H\s reasonings.
THE US PlSTRICT APPELLATE COURT WHICH OFTEN CITED PEOPLE
Vc COLE / 7.017 1L lT0997v HH 3H-S& IN IT’S ORDER , CHERRY-PICKED
Portions which met favorably with vt'sendg-oal and avoiding
THOSE PAINFUL PEREAS WHICH DIDN'T FIT THETHEOfCjC OHS POINT IT
AVOIDED, "A DEFENDANT NEEDONLY PRESENT-VUG GIST OFSUCtt A
CONFLICT " QUOTING PEOPLEV. HARDIN/Z.H UTZd ZBJ/ 3o3 (2005),
‘T HE DEFENDANT M VST SKETCH/ IN LtMlTEb DETAIL* APtCTuRC OF H<PW
THE WORK/NC RELATIONSHIP BETWEEN THE PUBLIC DEFENDErL CFEftTBO
An Appearance of i nip propriety * *»* Relevant factoid Td consider in­
clude Whether thetwo public defenders were trial partners in
I HE DEFENDANT'S CASE ; v\jhetwer the public defenders were/n
Hierazchiag Positions where, one supervisor c?r was supervised

31

’&Y f-HE OTHER , OR WHETHERTHESfZE✓ ‘STRUCTURE/ AWT? ORGANZA'
T\OM OF THE OFFICE IN WHlCH THEY WDRWErtf APFECTBPTHE CLOSEMESS OF ANY SUPERVISION. 14 AT 305*
the 2nd district appellate court summarizedthe defend­
ant's Position as "that the emotional nature of the offense,
WHICH SAW A LONG-STaNDiNGANP WELL'REGARDBP MEmEEEOFTHE
DEFENSEBARGONNED DOWN IN ms DRIVEWAY WAS SO EMOTIONALLY
HORIM FYING, THAT MO ^ EMBER OF TOE ft) BU C DEFENDER^ OFFICE
C.OOLD BE EXPECTED TO SERVE THE ACCUSED'S INTERESTS EFFEC­
TIVELY AND ZEALOUSLY-7' WANKEj 20191 LAPP* (2*0} 1705 T5-U/fi 114.
THAT WAS INACCURATE, THE DEPENDANT'S POSITION IS THAT THE
EMOTIONAL MATURE OP THE OFFENSE, WHICH SAWA LONG-STAND­
ING AND WELL-REGARDED PART-TIME E NIPLDYEE OP THE PUBLIC
DEFENDER'S (OFFICEGUNNED DOWN IN MIS DRIVEWAY/ COUPLED
WITH THE ENTANGLEMENT OF NUMEROUS SENIOR MEMBERS OFTHE
OFFICE IN THE INVEST IGATlON AND PROSECUTION OFTHE CASE j IN­
CLUDING ONE MEMBER TAKING QUESTIONABLE -AT-BBST ACTIONS
AS THE DEPUTY STATE'S ATTORNEY THAT THE DEFENDANT'S TRIAL
attorneys refused to challenge / gave rise to a conflict
FROM WHICH MO MEMEERQF THE OFFICE COULD BE COMPLETELY
FREE ORIM/VIU/UE,
IN HOLLOWAY7 THIS COURT HE LO THAT WHEN AN ATTORNEY, AS
AN OFF I GET OF THE COURT y TELLS THE JUDGE THAT HE CONSIDERS
Himself conflicted and is not confident he can adequately
represent his client, the Judge SHOULDTAKE Hina at his word,
455 U*Si 48tf . EVERY ATTORNEY WHO WAS ASSIGNED TO THIS
CASE TOLPTHEJUDGE HE FELT CONFLICTED AND WAS NOT COM­
FORTABLE Represent/ng the accused on all or part oftheca&e,
both trial attorneys y Zimmerman and sinvaomctold the
JUDGE I HEY WERE NOT COMFORTABLE CHALLBMGZNG C^OHHOR'S
Act(DKfS IM FEBRUARY OP COOS ANPj AFTER THE JUDGE DENIEP
THEI^ MOTION TO WITHDRAW/ NJOTHtNGMOPE WAS SAID ASodT
l HEIR COLLEAGUE O'CONNOR'S ACTIONS,
AND! HER CASE BEFORE THIS COURT COULD BE GUIDING/1 THE
evidence of Counsel's v5truggleto serve two masters Ccovld
fv/OTl SERIOUSLY BE DOUBTED Y CUYLER v. SULUVAM / H46U*S>
3U9, QUOTING GLASSERW UNITED STATES/41 S.CT,/AT ^7. THAT
"STRUGGLE“C0VLD EXPLAIN MORE THAN Z.IIVUAERM AN ANPSIMM6NS
ACTION OR INACTION) REGARDING THEIR COLLEAGUE O'CONMOR.
IT COULD EXPLAIN WHY THEY Pit? NOT OBJECT TO THE COUNTLESS
Comments or false statements made by prosecutors Purimg
CLOSING ARGUMENTS. THEY MADE FIVE SEPERATE COMMFNTSCIAIMInIG

ll.

'

l

THAT THE DEFENDANT SHOT CLARK BECAUSE HE WAtfTeP To REMOVE
C LARK FROM HIS CASE . THE RECORD S HOW S THE OPPOSITE IS TRUE *
CLARK ASK TO BE REMOVED FROM CASE # OG"CF-105 AND WHEN
HE FILED A MOTION FORA NEWTRI ALIN THAT CASE CLARK CLAIMED
s|0 l HAT THE DEFENDANT HAD INEFFECTIVE ASSISTANCE OPTR1AL
COUNSEL/' (EXHIBIT 7 PAGESH2. APPENDIX IV). THE "STRUGGLE"
COULD ALSO EXPLAIN WHY DEFENSE COUNSEL DIDN'T USE THE 06"
SCRVATIONS OF SAM CQRNN TO OPPOSE THE STATE'S NARRATIVE
THAT THE DEFENDANT CHANGED AND WASHED HlS CLOTHES. SAhA
CORNN'S TESTl MONY WOULD HAVE DISPUTED THAT- (C 1896). THE
"STRUGGLES" COULD BE BLAMED FOR COUNSEL NOT CHALLENGI NG
^POLICETEST!MOls/yTOTHE GRAND JURY THAT IT WAS A " FACT17
! HAT vl AT THE TIME OF THE S HOOT! NO WAS RICHARD WAnKEHNFACT,
ARMED WITH A FIREARM? A- VE5j HEY/AS/' NO WITNESS TESTIFIED
TO THAT ^ FACT" AND DEFENSE COUNSEL LET IT SLIDE, (c |9|)„
I HE 2YP DISTRICT APPELLATE COURT APPEARS To HAVE IT'S OWKI
Struggles'' in dissembling the record with inaccurate and
CONTRADICTORY STATE MENT5. ONE I £? REGARDING THE PUBLIC DEFEN'
FENDER'S OFFICE SENIOR INVESTIGATOR. ROBERT FAULKNER. THE
COURT STATE'S /"IT IS ALSO MANIFESTLY APPARENT INTHE REC6RP THAT
THE I RIAL COURT HELD A HEARING EACHTlME DEPENDANT ORCDUNSEL
RAISED THE ISSUE OF POTENT IA LOR POSSIBLE CONFLICTS I N THE PU&IJC
DEFENDER'S OFFICE." WANKE , 2019 HLAPP. (2KP) I705T3-U/T1 118.
YET/ ONLY PARAGRAPHS LATERy THE COURT CONCLUDES A HEARING
WAS NOT NEEDEPy BECAUSE IN XVHIS PRO SE "MOTION TO COMPEL' IN
WHial HE ALLEGED THAT THE PUBLIC DEFENDER'S OFFICERS INVESTIGATOR
Refused To investigate purportedly exculpatory evidence, Beud/bp
THAT DEFENDANT WAS GUILTY OF THE OFFENSE / AND EXPECTED THE
OFFICE TO BE REMOVED PROM THE CASE/' WANKE , 2019 W.APp'CW)
r70B73'U/11 17g»svT HE PROBLEM HERE IS THAT THE TRIAL COURT ALLOW­
ED THE SO-CALLED MOTION TO COMPEL TO BS FILED / BuT, AS UE~
PENDANT WAS REPRESENTED AT THETIME /DID NOT CONSIDER IT/'
™ **2.5* THE APPELLATE COURT DISTORTS THE RECORD AGAIN* THE
TRIAL COURT ALLOWED THE DEFENDANT TO SUPPLEMENT THE RECORD.
DUE TO HIS DISABILITY. THE DEFENDANT WAS DEAF OR HEARING
IMPAIRED AND AT TIMES IT WAS THE BEST WAY To GOP! MuH (CATE* (EX'S
APPENDIX W). THE TRIAL COURT ACCEPTED THIS AND NOTED WHEN it
WHEN THE DEFENDANT'S HEARING DEVICES WERE FAULTY/ RE­
MOVED OR HAD ISSUES WITH MICROPHONES . (C|12*7/ C 1152').
HERE/ THE APPELLATE COURT IS EITHER PURPOSELY UNAWARE OR
I GNORESTHE RECORD TO MAKE IT'S POVNT.
APPENDIX \V).

33

HERE /

PeMSFLr>FTUc
S?aTLlGHTSTUE METHOD AT THE: EXPICKtD BY qooeifi^k|AGE' 'IWAS ALLFGED THM_ FAULKNER WAS HAWD^^„rZS^RENSOM' '"ASTHEVEWFIRSTAPPOINTMENT, APPOINTED
FIRST BEFORE ANYONE WAS COUFLICTED OFF AMD DVRINGALLTHATTIME
OF APPOINTMENTS AnO WITHDRAWALS FAULKNER REFUSED TOTAKE AMY
p ™1?-5&AKP/NG INVESTIGATIONS UnTILTME MMTEK OF WHETHER THE
. f&NJ0ER s °FF| CE WOl]lP ^AllM OKI THE CA9L WAS RFSDLVGP ;
(Ku/^!tT^WE"AND"A"^A^VEAKS' pauikner, WAS SENIOR HFADOF

r,A^cTwLDyALT>" F<0Kw FAULKNER, BEING- SENIOR INVESTIGATOR, WORKED
fTrtE
1W THE °FFIC£, N AMELIN PERP.I / SCHMIDT/ DOLL/
kAAnE^r°^/ ^ ^MBRK/lANy S(lV\^ONS^ AND potential state witnesses
MARGIE O'CONNOR AND KRIS CARTENTER*
nr*
COURT ANIO APPELLATE COURT RESHAPED THE NJAKRAHUE

Paulkne£ as a matter of court room mechanics, More
AM Fof-Snuc ^urTH WH° WAS &R,NG'N6 ^RTHTHE IMPORTATION THEN THE
ATUt^^AS,^eMSELVeS'
APPELLATE COURT FURTHER. DISSEMBLES,
WAS IWEfWrcnvie
TFHrff
SG^AL Fy TWF PUBLICDEFENDER^ OFFICE DUETo A PO^A^«T^’6L£^PUCT-" WAMKE/ 2019 lit.APB (tWD) H0373-U/
IK
r TJ JTT
SOUGHT TO BE "CO-COUNSEL
knJnl??^iN C-ASE. AT IIS, THE FACT THAT TRIAL COUNSEL AFTER. BEING
MADE PUBLICLY AWARE OF THEBE ACTUAL CONFLICTS AND TOOK NO
ACTIONS DID MOT REPLACE THE INVESTIGATOR OR ADOPT HlS CLIENT^
Ha?-?n^5^A!5S M°F£THAN ANT OTHER "STRUGGLES’.' ZIMMERMAN
HftDCrUSi Kl SEIM TO BECOME DEPUTY OFtHB OFFICE AND HE WAS UNWILLING TO SAFEGUARD HIS CLIENT FKOM CONFLICT, APPoiNTA CONFLICTfree ini/estigator orchallenge the statuscwo. (CI563)
l IMMERMan WAS UNDER a SIGNIFICANT AMOUNT OF PRESSURE l/NDER.
ms NBW fOSmoN AND it manifested ITSELF ImMANT
WAYS \LKJ79; WITH HlS CLIENT, 2lKAlv\ERMAN WAS COMPELLED TO ARGUE
ON SFEEPyTRIAL GROUNDS JUST BEFORE TRIAL CONNTACtVOED
CCI5S8), TtiE FILING READS/"COUNSELFtAS FA)L£PTO INVESTIGATE,
PURSUE OR INFORM HIS CLIENT ASTO A SPEEP/-TR1AL CLAIMSORTlCWE
ACCRUED. /(Cl659), COUNSEL ^ UNO RE V THE TAIL HOUSE ROUTINE
OF MISHANDLING HlS CLIENTS LEGAL IMIML (C597) OR D£STPOy<MG-

i
:

«

’IT (’Cl’545) OR HAVING A STATE WITNESS AND FORKER SUPER­
VISING PETE CTlVt ON THE CLARK CASE IN
SEIZE HIS
LEGAL DOCUMENTS (013^0), ZIMMERMAN TURNED /A BUND'
EYE TO THE EE ACTIONS AT THE JAIL AND EVEN THE CIRCUIT
CLERK'S OFFICE (CGHO V\l HEN THEY FAILED TO PROPERLY HAWL6
HlS LEG-AL MAIL C661E) * ZIMMERMAN FAILED TO CORRECT IN/HOUSE OFFICE issues THE DEFENDANT ENCOUNTERED WHEN

Attempting to

■

;
;

contact his appointed trial counsel (cso'O,

ONE WOULD SPECULATE THAT THESE ISSUES HAD MORE TO
DO WITH Ttt E DEFENDANT'S PERSONALITY THAN HlS ATTORNEY'S
PROFESSIONALISM OR “STRUGGLES", BUT THAT WOULD BE
WRONG (C2.008),
EVEN AS ILLINOIS COURTS HAVE CONSISTENTLY REJECTED THE
PROPOSITION)THAI PUBLIC DEFENDER'S OFFICE EXPERlERCe PER
SE CONFLICTS IWTHESAME MANNER AS PRIVATE FlRfVNO, ILLINOIS
COURTS HAVE ALWAYS CLA I MED THERE WAS THE POSSIBILITY
THAT THE CtRCUNlGTANC.ES OF AN INDIUlTUACGASE COULD
GIVE RISE TO SUCH A CONFLICT. COLE , \ZO°)91j ‘ftiS^ SPREITZER J
ll^WHldATZi; BANlKS/ \2U\TZdATHl, THERE HAS TOST NEVER
BEENACASE WHICH MET THEIR STRICT iNTERFRETATlO N£j
WHICH FOR ILLINOIS MEANS THEY ARE GUST WORDS v IF THERE
CANEVER BE. A CASE WHERE SUCH CIRCUMSTANCES £*IST AND
CAN REDEFINE THOSE PARAMETERS/ THIS ISTViAT CASE* YET/ THE
ILLINOIS SUPREME COURT PASSEDON DOING THE HEAVY LIFTING.
THIS SUPREME COURT SROUlDGRANT REVIEW TO DETERMINE
WHETHERTHERE ARE ANY CONCEIVABLE CIRCUMSTANCES THAT
COULD CREATE AN OFFICE-WIDE CONFLICT OF INTEREST IN A PUBLIC
DEFENDER'S OFFICE . THE BETTER JUDGEMENTOFTHiS COURT
SHOULD PREVAIL.

5

f

I

\

:
:
:

f

i

i

-

;
!•
;

3$

:
i

i

Respectfully submitted

Richard EMVanke
Petitioner, Pro Se
Register No. K77902
PO Box 1000
Menard, IL 62259
(779) 348-2487
August

IS?>7lt
,2020

No.
In The Supreme Court Of The United States
Richard E. Wanke, Petitioner
v.
State of Illinois, Respondent

Affidavit

“I declare under penalty of perjury that the foregoing is true and correct.” Executed on August /jTT^
2020.

